, ....
. .      "'''




                                    MEDICAID ESTATE RECOVERIES
                                      National Program Inspection




                  .. SlIlVl(1ES .
                to'
                       r'




                      Ji?
             OFFICE OF INSPECTOR GENERAL
             . OFFICE OF ANALYSIS AND INSPECTIONS




                                                                    JUNE 1988
                                                                                                       ..   - _   -- !,




                                                 Office of 


                                         ector General

           The .ission Of the Office of rnspector  

           promote the efficiency, effectiveness and integrity of

          Pror.ms in the Dnit'd St.tes Dep.rtentGeer"
          Services (HHS). It                                  (OrG, is to
         d.teCt 'nd preVent fr.uo
                               does this by develoPing    methods to

                                                       Of -"'th and

         statute
                 in 1976
         s.cret.ry .nd   , the
                       the         , waste
                                Inspector
                            Congress        and
                                             'nd abos

                                      fUllyGeneral  keeps both the
                                                  currently

                                                                      Dum
         about programs 

                                                                                    . or.... 

         corrective action. The            or management 


         conducting aUdits                                infOrmd
                                       problems and recommends

                           , investigations and inspections by
                                      performs its mission
                                  OIG
         .pproxi..tely 1                                     with

         cOuntry .       200 st.ff str.t.gic."y loc.ted 'round

                                                                                                 the
                                   Office Of 

                                                               Analvs
   This report                                                          and
                                                                              InSDect                             . r

                  produced
   rnspeCtions (OAl),
               is
                      one Ofbythe
                               thethree
                                   Office of AnalYsis
                                        m.jor         and
                                              offices within the

  orG. Th. oth.r
                  two The
  of rnVestig.tions.  .re 
the Offic. of AUdit and the Office

  tyPic."y,                                   OA conduct   inspections
 effectiveness
            Sbort-term                      stUOies deSigned to determine progr..
 abuse.                                                                Whch
                                   , efficiency 'nd VUlnerability to fr'ud or ar


  This stUdy was conducted to

 reCOvery programs

 enhancements.          , document evaluate State Medicaid estate

                                   best practices

 Th. repOrt w.s prep'red under the direction,of    and recommend

                                                     Kaye D.

'idwe" , the
Of An"ysis .ndrnsPections.
Were the
                                  "'io",
                            rnspector Gener" Of Region rx
            . fOllowing People:     P.rticip.ting in this project
                                                           , Offic.

    StePhen A. Moses
                                                                                       . L..

    Kathy L. Admire , Project Director

    Leonard CZajka , Program Analyst

   Ruth
         E.    Carlson,,Program
   Jeffrey Balentine

                                Analyst

                          Program Assistant
  Norm
                Zimlicn     Liaison
               Former Project Director
                                           , Project


 State Of Washington
                Headquarters
                                       , now with the

                  MEDICAD ESTATE RECOVEES




RICH P.    KUSSEROW
INZ ECTOn GE                                JU 1988

OAI-09-86-00078
                   . . ;. . .
 .. . . .. ... . . .. ...... . . ... . . .. .
                                            TABLE OF CONTNTS


                                                                                Page
EXECUIV SUKY                            ...
AN ANALYSIS OF TH                      MEDICA CATASTROPHIC          BILL
  IN TH CONTXT               OF TH OFFICE OF INSPECTR
  GEN'S                 REPORT ON MEDICAID ESTATE RECOVEES
INTODUCTION
FINDINGS
   TRSFE                OF ASSETS.

         state Statutes on Transfer of Assets

         state Procedures

         How Transfer of Assets                       Provisions   Affect
               People
         The Intent to Return Rule. 

         state Staff Speak out on Transfer of Assets

               Problems
       State Recommendations. 

   WH PEOPLE WITH SIZEALE ESTATES END UP ON
     . MEDICAD
   LIENS
       Problems with Liens. 

       Alternatives to Liens. 

       state Recommendations. 

   ESTATE RECOVEES
                                    . 0

               Chart: Medicaid
         state Performance. 


                               Estate Recovery Programs
                      by Type of Program

               Table I : Active Medicaid Estate Recovery

                                     Programs
         Estate Recovery Effectiveness Ratios

           Table 2: Effectiveness Measures

         National Projections
               Table 3: National Estate Recovery

                                     proj ections 


         Organization and Procedures. .

               Chart:Medicaid Estate Recoveries: Actual
                     and Potential for United States. 

         Spousal Recoveries

         other Practices. 


         Accounts Receivable. 

         Exemplary Practices. 

         state statutes

               Table 4: State Characteristics. . . 

         State Recommendations on Estate Recoveries

   CONCWSION

               Illustration: Tip of the Iceberg. 

RECOMMNDATIONS. .
BIBLIOGRAHY
APPENDIX                                                                    . . A-I
                         EXECUIV SUKY


PURSE:       The purpose of this study was to:

     Evaluate the extent and effectiveness of Medicaid

     estate recovery programs implemented pursuant to the Tax

     Equity and Fiscal Responsibility Act (TEFRA) of 1982.

     Document State statutory authorities, methods, best

     practices and problems related to the recovery of

     benefits correctly paid from the estates of deceased

     Medicaid recipients.


     Solicit and report the advice of states concerning the

     best Federal approach to improving Medicaid estate

     recoveries.
BACKGROUND   The TEFRA authorized States to (1) restrict
transfers of assets for purposes of obtaining Medicaid

eligibility,  (2) place liens on the real property of Medicaid
recipients to insure the property I s  availability for later
recovery and (3) recover the cost of care from the estates

of deceased recipients. Evidence from many sources--

including law journal articles, the popular media, the

National Governors' Association, State Medicaid programs , and

an unpublished Health Care Financing Administration (HCFA)
study--suggest that the new TEFR authorities may be less
than fully effectual.


MAOR FINDINGS : Al though Medicaid covers only about one-
third of poor people over age 65, many elderly recipients

retain sizeable estates which pass to their heirs without

reimbursement of public costs.


Only 23 States and the District of Columia recover benefits
correctly paid from the estates of deceased Medicaid

recipients. They recover less than $42 million annually. 

Cost effectiveness ratios range from less than $2 to over $51

recovered for every dollar invested. If every state

recovered:
    At the same level of      Then, the national recovery

    effectiveness as:         potential would be:

    The most effective

    State (O:!egon)            $589 million
    The mean of current

    recovery States            $ 74 million
    A large, urban

    State (California)        $123 million
The states report that Medicaid eligibility rules permit

knowledgeable individuals to transfer or shelter property

from Medicaid resource limitations in a manner reminiscent

of income tax avoidance. Less        applicants are denied
eligibility and have to liquidate their assets and spend

                                                             savv
down to Medicaid limits at great inconvenience and financial

loss to their families. Whether assets are transferred or

liquidated, they are lost as a future source of revenue to

the Medicaid program through estate recoveries.


Despite congressional intent that "
                                       resources available to an

institutionalized individual
, including equity in a home

which are not needed for the support of a spouse or

dependent children will be used to defray the costs of

supporting the individual in the institution,

States have implemented TEFRA I s lien             only two
                                         provisions to secure

property for estate recovery.

Many State Medicaid staff believe that program resources

could be enhanced and inequities reduced by
                                            (1) stronger

restrictions against transfer of assets to qualify for

assistance
                                                      liens
             , (2) fewer restrictions against the use of 


to secure property for estate recovery and
estate recovery programs.
                 (3) mandatory


RECOMMNDATIONS                 We recommend that appropriate actions be
taken to:
    Change Medicaid rules to permit families to retain and
    manage property while their elders receive long-term
     care.
    Strengthen the transfer of assets rules so that people

    cannot give away property to qualify for Medicaid.


    Require a legal instruent as a condition of
                                                 Medicaid
    eligibility to secure property owned by applicants and

     ecipients for later recovery.


    Increase estate recoveries as a nontax revenue Source

    for the Medicaid program while steadfastly protecting

    the personal and property rights of recipients and their

    families.
    Conduct (a) a thorough audit of current estate recovery

    programs ,  (b) a study to determine how much equity is
    he i ng diverted through liquidation or transfer of assets
    from long-term care costs at the expense of the Medicaid

    program , and (c) a review to evaluate how large a
    chilling effect the availability of Medicaid without

    encumering assets has on the marketability of private
          sjlaring solutions like long-term care insurance.
                                     . -. - -




       AN ANALYSIS OF   TH MEDICA         CATASTROPHIC BILL

     IN TH CONTXT   OF TH OFFICE OF INSPECTR         GEN'S
             REPORT ON MEDICAD ESTATE RECOVEES

The Medicare Catastrophic Loss Prevention Act of 1987 (H.

2470) as passed and amended by the Senate on October 27,

1987 (S. 1127), contains several provisions related to

matters discussed in this report. The germane section of

the catastrophic bill is "SEC. 14C. PROTECTION OF INCOME

AND RESOURCES OF COUPLE FOR MAINTENANCE OF COMMITY
SPOUSE. " This section would make two maj or changes to the

Social Security Act in addition to requiring the Secretary

of Health and Human Resources to conduct a major national

study. The first change would add a new section 1921 to the
act entitled  "TRETMNT OF INCOME AND RESOURCES FOR CERTAIN
INSTITUTIONALIZED SPOUSES.    The purpose of this section is

to ameliorate the spou al impoverishment problem. The
second change, entitled " TAKING INTO ACCOUN CERTAIN
FERS OF ASSETS, " would amend subsection (c) of section 1917

                                                               TRS­
of the act to require a Medicaid State plan provision

delimiting transfers of assets to qualify for assistance.

Finally, the bill would require the Secretary to conduct a

study of Medicaid estate recoveries. We will discuss each

of these provisions in sequence.


Spousal Impoverishment


Under current law , spouses of institutionalized Medicaid

recipients are sometimes forced into impoverishment by

Medicaid eligibility rules. This usually occurs because the

husband is institutionalized first. If, as is often the

case , most of the family' s income such as Social Security
and/or a pension is    in   the husband' s name , Medicaid rules

provide that all but a small amount must be applied toward

his cost of care. The wife who is left        in  the home, i.
the community spouse, retains only a pittance. On the other

hand , if the wife  is    institutionalized first , and the income
is still in the husband' s name , he keeps the money, because

the community spouse has no legal obligation to contribute

toward the cost of the institutionalized spouse' s care.


The catastrophic bill addresses this problem by increasing

the amount of income and resources that the community spouse

may retain without affecting the Medicaid eligibility of the

institutionalized spouse. Because more people would
                                                      qualify
for assistance and less family income would apply toward  the

cost of institutional care , the fiscal impact of this solu­

tion would be to increase Medicaid expenditures. We found




                              iii

 that 3- year cost estimates on similar provisions in dif­

 ferent bills varied from $410 million (Congressional Budget

 Office) to $1, 275 million (HCFA actuaries) depending on

 implementation assumptions. All estimates ascend steeply

 into future years.


Certain findings from the OIG I S Medicaid Estate Recoveries
report have a direct bearing on the spousal impoverishment

 issue. In fact,                  we believe this problem can be resolved at
considerably less public expense than is comtemplated in the

current legislation. We found, for example , that many

 "impoverished spouses" own their homes free and clear.

Their problem is cash flow , not poverty                 Der se . We found
        t two-thirds of the elderly poor are unable to qualify

for any Medicaid services , although many individuals with

large assets are eligible for the program' s most valuable

benefit              (i.             institutional care).
                                                      We documented that
recovery of Medicaid payments from the estates of property-

holding recipients is very unusual. This is true because
assets are (1) transferred, sheltered, expended or concealed

by recipients and their families and/or
have taken no action to recover. In light of these facts

                                                            (2) public officials
we recommended that propertied recipients be permitted to

retain their income and assets while receiving Medicaid

long-term care benefits, but only
                                                   in exchange for a promise,

secured by a legal encumrance, to repay the cost of their

care when they no longer need their property. This repay­

ment would be made from their estates or the estates of

their last surviving dependent relatives after the property

is no longer needed for a livelihood. Such a plan would

resolve the spousal impoverishment problem, eliminate the

most catastrophic financial impact of long-term illness

and add a major nontax revenue source for Medicaid. More
importantly, the risk of losing their financial legacy

would influence the elderly and their heirs to seek private

long-term care insurance protection and thus further relieve

fiscal pressure on public programs.


Transfer of Assets


The catastrophic bill would make several changes

handling of asset transfers to qualify for Medicaid.

                                                                    in   the
Transfers to a community spouse up to but not exceeding a

newly created " resource allowance" would be allowed.
Transfers    any amount pursuant to a court order would be

                        in

permitted. Finally, a State  plan amendment would be
required which delays eligibility for a period of time

commensurate with the amount of uncompensated value

transferred within 26 months of application for Medicaid.

 In most other respects, the transfer of assets     restrictions.
 would remain the same as in the Tax Equity and
 Fiscal
 Responsibility Act of 1982 (TEFRA).
 The OIG report contains 
considerable body of evidence

 relevant to these legislative proposals. For example
assets transferred to a spouse or any other exempt dependent

may then be transferred by the grantee to someone else such

as an adult child or a charity without affecting Medicaid

eligibility. As a consequence , even very large estates are

eliminated forever as a source of private funding for long-

term care. This welfare resource avoidance technique is

widely recommended by lawyers who counsel the well-to-do

elderly on how to qualify for Medicaid. We also discovered

many other similar techniques. For example, community

spouses (and adult heirs and their attorneys) sometimes

 (1) seek court ordered support from spouses insti tutional­
ized at Medicaid' s expense, (2) obtain divorces to

impoverish the ill spouse, (3) set up Medicaid qualifying

trusts,  (4) fail to disclose property or transfers
(5) purchase exempt property to shelter liquid assets,
(6) relocate institutionalized elders to States with more
lenient eligibility rules , (7) deed homes and automobiles

over to themselves and (8) use j oint tenancy ownership as a
shel ter. These actions and many others are taken to pre­

serve income and assets for the family by shifting long-term

care expenses to Medicaid. Finally, we found that the

practice of transfering assets to qualify for Medicaid is

quite common even though all states but one already have

rules restricting such transfers. In other words, making

transfer of assets rules mandatory will not alone resolve

the problem.


Perhaps our most important finding on asset transfers

however, is that they are not nearly as important as another

Medicaid "loophole. " A much larger source of private long-
term care funding is lost because of the relatively obscure

"intent to return" rule than will ever be lost because of

asset transfers. The home of an institutionalized Medicaid

recipient who expresses an intent to return home remains

exempt indefinitely whether or not such a return is medi­

cally feasible.  Thus, people do not have to transfer assets
to protect their property for heirs. Unless the state has

an effective estate recovery program, and this 

                                                   is   unusual
an exempted home inures to the heir upon the death of the

recipient. With 70 percent of the net worth of the elderly

invested in their homes, the intent to return rule means

that most of this wealth is easily protected from long-term

care costs and preserved for heirs at public expense.

 We do not advocate forcing families to sell their homes to

 pay for nursing home care. This is done in many
 despite the "intent to return" rule. We believe                        States
                                                                        the prac­
 tice        is     uneconomical as public fiscal policy as well as

  financially devastating to impacted families. Rather, 

propose to let families , including community spouses, keep

their real and liquid assets subject to a 


Medicaid benefits from their estates. Recipients             promise     to heirs

                                                                         or repay

who wish to protect estates may purchase private long-term

care insurance to do so. With such requirements in place

demand for, and hence availability of
be expected to increase rapidly. The ,rules               this insurance can

                                                                   requiring

estate recovery could be grand fathered in to safeguard

individuals who are already too old or infirmed to obtain

long-term care insurance
                                            in the private market place.

this manner , we can protect more people from catastrophic

long-term care costs at less public expense.

Medicaid Estate Recoveries Study

 The catastrophic bill provides that the Secretary shall

 conduct a " study of means of recovering costs of nursing
 facility services from estates of beneficiaries.
 to Congress on this study would be due by December                     " A31,report
We believe that it
                              is    important to observe that three major

                                                                                1988.
studies on this subject have already been conducted.
 first research project was 

                                                                               The
                                              one by the Health Care Financing

Administration' s Seattle Regional                   Office. Although unpub­
lished by HCFA , this study spurred major national                       reviews

of estate recoveries by both the Office of Inspector General

and the General Accounting Office (GAO).             
 The GAO report 

due for publication 

                                                      expected to corroborate

the OIG'   s findings. If the    in  1988 and     is

                                              OIG report is correct , Medicaid
estate recovery programs are relatively easy to implement

and highly profitable for State and Federal treasuries. 

IG estimates that each year we delay implementing estate The
recqveries may cost the taxpayers as much as $500 million

even under current law. With enhancements to current law as

recommended in the OIG report , savings could be much higher

still.
                                        INTODUCTION


The Federal Medicaid statute passed 
in 1965 severely limited

State authority to restrict asset transfers, impose liens,

or recover the cost of care from recipients I estates
 (Deford, p. 134). For many years, anyone in need of long-

term care could  give away everyhing and qualify for nursing

home institutionalization paid for by Medicaid without any

concern for repayment.    Then, in the Tax Equity and Fiscal

Responsibility Act of 1982 (TEFR), Congress enacted a

three- pronged plan intended
            to assure that all of the resources available to an

            insti tutionalized individual, including equity in a
            home, which are not needed for the support of a

            spouse or dependent children will be used to defray

            the cost of supporting the individual in the

            institution. (U. s. Code , p. 814)

The TEFRA allowed states to (1) count the uncompensated value

of an asset transferred for less than fair market price

toward the Medicaid eligibility resource limits, (2) place
liens on the property of living recipients to insure the

availability of the property in their estates and (3) recover

the cost of benefits correctly paid from the estates of

deceased recipients. These new authorities were restricted

in many critical ways as we will discuss below. In theory,
however, if States chose to exercise the new TEFRA authority,

people would no longer be able to jettison property, nor

have it divested by others, to qualify for Medicaid. states
could recover the cost of care from the retained property

when it was no longer needed by the recipients or their

dependents. Furthermore , the recovered funds could be used

to help other people in their time of need.


In the fall of 1985, the Office of               Inspector General became

aware of information which brought               into doubt the effective­

ness of the new TEFR procedures.                 We reviewed a draft report
prepared by region X of the Health               Care Financing



        There was no Federal authority to restrict transfe

of assets to qualify for assistance. Some states restricted

asset transfers anyway, and this led to litigation. The
Boren-Long Amendment of 1980 was supposed to resolve the

problem. It permitted states to restrict asset transfers,

but only if the assets transferred were nonexempt. Thus,

Boren-Long excluded most recoverable assets from transfer of

assets restrictions.
                                                                                           , ,.




        Administration (HCFA). This unpublished report2 explained
         (1) how people even with large assets can qualify for
        Medicaid, (2) how "loopholes" 

                                     in TEFRA'
       lien and estate recovery authority      s transfer
                                          weakened        of assets
                                                    the law'

       and (3) what might be done to achieve the original s impact

       congressional objectives without sacrificing important

       safeguards. The report contained extensive documentation:
       excerpts from legal journals recommending Medicaid 


       bili ty resource                                                           eligi­
                                              avoidance as a routine estate planning
       technique; information on transfer of assets

       estate recovery practices around the country; 
                    , lien, and

      recovery practices                                               analysis
                          in 2 diverse States; and over 140 actual

      case examples of the impact of these policies on recipients'

      lives and Medicaid program resources. 

                                              Finally,
      draft projected a large nontax revenue source  to the
                                                         the HCFA

                                                              Medicaid

      program, based on actual results in one very successful

      State , if the TEFR provisions were uniformly and efficiently
      implemented nationally.


      Faced with strong evidence of a potentially large new nontax

      revenue source , we decided to find out exactly what States

     have done since 1982 to implement TEFRA' 

     authori ties. We sought to determine the sextent
                                                 asset and
                                                        control

                                                            effec­

     tiveness of Medicaid estate recovery programs throughout the

     country. We wanted to report on "best practices" that could

     be used  in other States. We also saw 

     state Medicaid eligibility policy with the  needto
                                              regard  totransfer
                                                          examine
of

     assets and liens , because estate recoveries are obviously

     moot if no property 


     that can be recovered after
                                      is retained
                                                    their
                                                       in recipients'
                                                          deaths. 
   possession
     necessary information, we used a questionnaire which was
    To obtain the

     reviewed          in advance by HCFA and approved by the Executive
     Office of Management and Budget 

                                                       (EOMB). All 50 States and

     the District of 

                              Columia           responded.
     telephone follow-up with about three-fourths          We did extensive
                                                                    of the

     respondents.
 Almost simultaneously with our work

 Office (GAO) in region X undertook a, national
                                       the General Accounting

                                                study of
 TEFRA' s asset control provisions with a focus on estate
 recoveries. The GAO' s emphasis is  on actual dollar recovery

potential
             eight States based on review of statistically
                             in
valid case samples. Its study is 

                                    due for publication

sometime in 1988. We have met frequently, worked closely,

and shared extensively with GAO staff on this project. 

collaboration was very beneficial.                        The


                 Some of the material 


in          a volume entitled , "Medicaid the HCFA report was published

Oct. o1:e:! 1985.                         Transfer of Assets"

 others who have studied this subject are Russ Hereford and

 Bruce Spitz of Brandeis Uni versi                     
 ty,
 National Senior Citizens Law Center,GillRick Deford                  Curtisof       the

                                                                                   and John

 Luehrs of the National Governors I Association
 for Health                 Policy
                                                                               (NGA) Center

                                             Studies , and the Office of Inspector
 General, Office of Audit. Hereford and Spitz wrote the
first        , path-breaking paper on transfer of assets in December
 1983. In June 1984, Deford published the most thorough legal
analysis of "Medicaid Liens
                                                       , Recoveries and Transfer of

Assets After TEFRA" available to this day. 


at NGA have examined and compiled the literature                        CUrtis       and Luehrs

State officials                      , and offered a sounding board and clearing­,  interviewed

house on transfer of assets policy.

                                       , "





                                        FININGS


  Our study began with a definite focus on estate recoveries.

  We realized quickly, however
                               , that the TEFRA asset control

  authorities are an integrated tripartite package.
  of assets,                 liens
                                                                Transfer
                             and estate recoveries are inextricably
 linked. They are the tools Congress gave the states to

 secure a person' s property before and during Medicaid

 eligibili ty so that equity
                                       in the property can help pay,

 after death , for the person' s cost of care. Therefore

                                                                   , we

 will present our findings
                                       in   the following order: transfer
 of assets , liens , recoveries. Each section
 brief explanation of the law, followed by a discussion(a) begins of
                                                                  with  a

                                                                     the

 relevant questionnaire responses
                                           , and (b) includes examples

 and descriptions of best practices used 

                                           various States.
 The report concludes with a sumary of estate         in

                                              recovery

 activity and an estimate of the recovery potential

 nationally with and without changes to the Social Security

 Act.
 TRSFE OF                     ASSETS
 Section 1917(c) of the Social Security Act codifies TEFRA'

 transfer of assets provisions. It says that


               . . . an individual who would otherwise be eligible
               for medical ' assistance under the State plan.. .
                                                         may
           be denied such assistance if such individual would

           not be eligible for such medical assistance but for

           the fact that he disposed of resources for less

           than fair market value.

Having granted this authority, the remainder of the section

restricts its Scope. With regard to
recipients who must contribute most ofinstitutionalized
                                        their income to the

cost of their care, 

                          the nursing home population most

likely to possess excluded assets who are the principal

subjects of this study, the law provides:


          The "look back" period for a home transfer at less than

          fair market value 

                                 limited to 2 years immediately

          before the Medicaid application.
                              is




          3 A 

           HCFA Memorandum dated 


Acting Director of the Bureau ofJulyEligibility, 31, 1986,Reimbursement

                                                           from the

and Coverage (BERC) to the Regional Administrator of HCFA'

Atlanta Region (IV) conveyed an unexpected interpretation of

the law.  According to BERC           If an individual may be made
ineligible for more than 24 months

   iev    3t
                                          , there 
   is no reason to
                       State may not look back for the same period
     The period of ineligibility after disposal of the home

     may be less than 2 years or more, but it must bear a

      reasonable relationship... to the uncompensated value of

     the home.


     Ineligibility may not be imposed if the individual


          is expected to return home


          transferred the home to a spouse or minor or

          disabled child , or

          intended to dispose of the home for fair market

          value.
     Ineligibility may not be imposed if the state determines

     that "denial of eligibility would work an undue

     hardship. "
Because the act specifies that Medicaid limitations on

transfer of assets may not be more restrictive than

Supplemental Security Income (SSI) limitations , except under

specified conditions which do not apply to this point, ineli­

gibility will also not occur if an individual or spouse

"furnishes convincing evidence " that an otherwise disquali­

fying transfer was done " exclusively for s ome other purpose"

than to become eligible for assistance.


The law on transfer of assets is extremely complex

confus ing, and litigable. Al though HCFA has not yet pub­

lished regulations to clarify the statutory language, sucn

regulations are under development.


According to our questionnaire responses, 49 States   have
opted to apply the transfer of assets restrictions.    Alaska
did not. Assets may be given away with impunity to    qualify ­
for Medicaid in that state.


State statutes on Transfer of Assets


Some States have their own statutes dealing with transfer of

assets. These vary widely  in strength. Alabama makes an


of ineligibility to determine whether there was a transfer

of assets for less than fair market value which would have

made the individual ineligible at the time of the transfer.

Deford disagreed strongly with such an interpretation

(Deford, p. 138). Only the courts can decide definitively

whether look-backs beyond 2 years are permissible under

these special circumstances. In practice, however, such
circumstances occur infrequently.
                                                                                           ---   - - - .- -..-




    "inter-
                                                                                    left
                     vivos" gift of assets void if the donor

    wi thout means of support.Connecticut law makes transfer of
                                                                               is

   property for less than fair market value for purposes of

   obtaining assistance a fraudulent conveyance and provides

   for civil action. Virginia makes 

                                     recipients
   property liable for the uncompensated  value.of
                                                 
 such

   the transfer of money or property             Illinois says

   recipient into a joint tenancy account 

                                                                 of' a current or former
  evidence of an intent to defeat             prima            the claim  against facie
                                                                       is "        his

   estate.  Oregon law authorizes the State to
                                                    (1) petition
  for judicial appointment of a conservator to protect

  incapacitated recipients from inappropriate or victimizing

  divestitures and (2) " prosecute a civil suit or action to set
  aside the transfer, gift
                           , or other disposition of any money

  At the other end of violation"
                      the spectruofare
                                    transfer of assets rules.
  or property made
                                              in



  oth                                  Montana and several
           r States which do not apply transfer of assets
  restrictions to property which 


  exempt if the grantor had been onis  exempt or would
                                       assistance      have
                                                  at the     been

                                                          time of

  the transfer. Finally, one person responded that "
 general tone in ;my State) is that it is ethical and
   the
 appropriate to rearrange assets to insure an inheritance for

 heirs. What often happens at the time of death is that there

 is     no estate to open.
                         The family can distribute and move
 assets so nothing is left.... 

                                          seen as appropriately

 conserving assets for the dearlyIt intended.

                                      is




 Most States which restrict transfer of assets follow the

 Federal statute'
s prescriptions and HCFA pol 

 the 2- year look-back period.                                 icy regarding
                                                 A few do not. Four States
 use a 5- year look-back; two States                  use 3 years; and
 two States use I year.
State Procedures


All States utilize a document, 


application ,                                     the Medicaid

                         which describes assets and their value and
which must be signed by the applicant. 

normally the applicant' s largest asset Home equity,

recorded , however, if the home is exempt           , is
                                                       at usually
                                                           the timenot
                                                                     of
application. The failure of eligibility workers to place a

value on exempt homes was roundly criticized by one estate

recoveries official. Exempt property 

e. g. , when a resident SpOuse dies, andcan          maybecome  nonexempt

                                                         be recoverable
from an estate. For this reason
even if it does not immediately ,obstruct     all property    is important

                                                        eligibility.

States , including some active                                         Many
California , Montana and North Dakota,    in estate recoveries such as

                                                   do not apply transfer
of assets restrictions to exempt property. 

a recipient can transfer exempt property to aInthird          such party,

                                                                    States

receive long-term care benefits for the rest of his life

",ild never have to worry about recovery from the estate.
Nearly all States do routine training for eligibility

workers on treatment of resources including transfer of

assets. Only three states reported doing special training

on transfer of assets and/or estate recoveries. One State
alone , Oregon , routinely provides annual training for field
staff on the importance of and the relationship between

enforcing transfer of assets provisions and recovering from

estates.
Based on the assumption that transfer of assets restrictions

are moot if States are unaware of the asset or transfer, we

asked about routine verification procedures to determine if

liquid assets and real property were investigated even if

denied by the applicant. We found that 39 states indepen­

dently verify assets, usually by contacting banks. Only
 18. States, however , routinely check with county assessors and
recorders concerning home ownership and transfers. Verifica­
tion of the real property of nursing home recipients is by

far the most important procedure , because most of the net

worth of the elderly       is in 
 their homes. Liquid assets, we

were told, are so easy to dispose or convert to excluded

resources that they hardly matter. Real property, on the

other hand is        registered and relatively difficult to hide or

convert. Some States said that checking for property in all

cases was time- consuming and unproductive. One State made a

very telling remark which presages what follows 


analysis: "So many transfers are legitimate, there is no use

                                                              in   this
checking.                    Nevertheless, a single "hit" which disqualifies
an ineligible recipient or results 
                  in a recovery of benefits

paid can justify considerable looking. Oregon estimates that
a full-time employee could be profitably employed verifying

nothing but foreign 
                (i.      out of State) property which was
unreported by recipients. It " recently tracked down a

property sold by a family 
                in   Massachusetts who then put their

elder (who had owned the property) 
                  in a nursing home in

Oregon on Medicaid and moved to Arizona.                      California
actually keeps property records on microfiche in their

office. The records are obtained from a Florida company

which compiles such information.
How Transfer of Assets Provisions Affect People


To understand better how transfer of assets restrictions

affect people, we asked what options are given to an

applicant or recipient if the state discovers a disqualifying

transfer. In                  almost all States, there are no options. The
person receives due process 
               in the form of an opportunity to

    , appeal, or argue hardship.
rebut                                              The uncompensated value
of disposed assets 
               is counted toward the personal asset

reserve standard. Then the application is denied or the

current eligibility terminated if appropriate. An applicant

or recipient may reverse the disqualifying transfer or

obtain full compensation, but these alternatives usually

cause ineligibility anyway because of excessive resources.

The next step is to determine a period of ineligibility

which may be shortened based on high medical costs , urgent

home repairs, or other justifiable expenditures.


A few states offered some creative options to the transfer

of assets dilemma. Recipients disqualified after a period

of receiving inappropriate benefits might be permitted to

repay the cost of their care as
                                                   in Alabama , Colorado and
Oregon, in order to shorten their periods of ineligibility

and      minimize               their exposure to higher, private- pay nursing
home rates. "Avoiding probate" might be accepted as a valid

rebuttal of the presumption that a transfer was for the

purpose of obtaining Medicaid eligibility as in California

and Idaho. Or perhaps the state would intercede on behalf of

the client to reverse a victimizing transfer and seek

financial recourse from the grantees. Colorado, Connecticut

and Oregon will do this 
                  in        cases of financial abuse. The
most creative option to the transfer of assets dilemma,

however,              is    Oregon'   s " open ended mortgage. " Grantees, i. e. ,
the people to whom recipients have given their assets , are

permitted to retain the transferred property. In exchange,
however, they must agree to pay back the full cost of

Medicaid benefits upon the recipient I s death up to the
uncompensated value of the property secured.


Several States lamented HCFA and SSI policies on " contracts
for deeds,


           "Until recently, Minnesota allowed people to keep

           their contracts and the income would apply toward

           their cost of care in a nursing home under

           Medicaid. Now , we have to treat the contracts as

           disqualifying property. That means the people

           have to sell the contracts at a severe discount.

           This value is lost to the recipient, the State and

           the Federal Government. Then the recipient ends
           up back on Medicaid 
                in   a short time anyway. If
           the contracts were kept , they would go on paying

           even after the recipient dies, frequently paying

           the whole cost of care sooner or later.


For example , says Utah:


           "A person sells their $50, 000 home and this

           generates $500 a month for 30 years--that'
           $180, 000 we could use toward the cost of nursing
           home care. The SSI regs say we have to count this

           as an asset, so the recipient sells the contract

           for $20 , 000 , which makes him ineligible for 1 or
           2 months , and then he' s right back on Medicaid,

      when we could have been applying the $500 per month

      almost indefinitely. The Medicaid program would be

      much better off, if we could have continued to 

      operate allowing recipients to keep their con­

      tracts ,but HCFA says we have to count these as an
      asset. "
Colorado concurs. At least one other state, sharing these

concerns, simply ignores the HCFA/SSI rules without being

challenged, a not uncommon State strategy on eligibility

policy compliance issues.


One other option available to Medicaid applicants with

disqualifying assets or transfers has been eliminated by

departmental policy. Until september 1985, SSI and HCFA

allowed recipients to receive benefits while they made a

"bona fide effort to sell" their excess resources. 4 Now

recipients must liquidate their resources and s end down to

eligibility limits before they can be eligible. The states

often observed that this new policy can lead to "fire sale"

liquidations, loss of asset value , and family disruption.

According to Connecticut, "By forcing this kind of loss

Medicaid is just enriching someone else at the expense of

the client, the State and the Federal Governent.

We asked how States handle this situation with regard to

home property. Thirty-seven States said that in the
absence of some other reason to exempt the home, it would

have to be sold and the proceeds spent. Thirteen of these

States reminded us that another reason to exempt the home,

Le.      , the "intent to return" rule discussed below , is almost
always available. Eight States , however, made some

reference to an extended exemption based on the effort to

sell a nonexempt resource despite the policy restriction on

such exemptions. Some States permit eligibility if the

recipient agrees to pay back benefits received when the

property      is sold and is willing to secure this responsibility

wi th a lien or assignment on the property. Other States do

not require the lien and mayor may not       require a pay back.
Connecticut allows an applicant with disqualifying resources



        The sources for this statement are a HCFA Memorandum

dated September 20, 1985 , and Transmittal No. 14 of the

Supplemental Security Income (SSI) Program Operations Manual

System (POMS) dated November 14, 1985.

        The Omnibus Budget Reconciliation Act of 1987 has

partially reinstated "bona fide effort to sell."

to " sign          a mortgage with the state, list the property, sell
it within 9 months, reimburse Medicaid for all benefits

received, and then become ineligible if the remaining

balance is still disqualifying.             New York uses an

  assignment of proceeds.            Oregon will even petition the

court to appoint a conservator to sell the property and turn

the proceeds over to the agency if the appl icant is incapac­
itated and unrepresented or financially abused. Two states

said home property           is exempt with no qualifications, and one

State has no restriction on transfer of assets so its

procedure for nonexempt home equity does not matter.


The Intent to Return Rule


The only good news about the transfer of assets restrictions

for Medicaid applicants and recipients                 is that the rules
can usually be circumvented. Obviously, the law itself
exempts many transfers such as those which occurred more

than 2 years before application or benefited an exempt

relative. The most important factor putting property outside

the reach of eligibility and transfer of assets limitations,

however,              is     the "intent to return" rule. According to HCFA

and SSI policy, if an applicant or recipient expresses an

uncontradictory intent to return home, the home shall remain

exempt indefinitely. Unlike certain          post-eligibility treat­
ment of income rules and lien requirements , the probability

of a recipient' s actually returning home is not the                issue and
need not be medically verified. Subjective intent of the

recipient, according to explicit HCFA policy clarifications,

is   what matters. 6
We asked states how they handle the intent to return rule.

This policy is very important, because it determines whether

an institution-bound applicant' s most valuable assets will
be exempt or not. If recipients are allowed to claim intent

to return with near impunity and a State has no estate

recovery program for benefits correctly received, then these

large assets go entirely unencumered to heirs. We found
that half the states accept recipients ' subjective intent
according to SSI and HCFA policy and half require objective

verification from a medical doctor. We asked one state

which requires verification if it knew its policy violated

SSI rules, and the response was positive. Georgia said
"this (intent to return) ruling places virtually all home

equi ty in an exempt status. 
 Wisconsin remarked that it


        The sources for these statements are a HCFA

Memorandum dated January 14 , 1986 , and Transmittal No.            13 of
the SSI-POMS dated November 1985.

actually " compelled            by Federal quality control to have a
physician'            s statement in the case record.

Al though the intent  to return rule is the most important
exemption from property and transfer of assets restrictions

there are many other techniques to achieve the same purpose.

We asked states how they dealt with divorce , trusts, and

nonsupport suits 7 when these actions are taken for the
purpose of divestment to qualify for Medicaid. Twenty-four
states said they would permit divorce; 17, trusts; and 12,
nonsupport suits. Twenty- one States said they would not

permit divorce; 28 did not allow trusts; and 30 ruled out

nonsupport suits. The rest of the States did not know.

Most, States were very vague on what, if anything, they would
do to discover or counteract techniques that they claim to

disallow. A few , however, are quite active. Connecticut,
for example, told us it "had a case recently where an

employed working man divorced his wife when she got

Parkinson I s disease. He would not give her anything except
the small coverage she was entitled to for free through his

employment-related insurance. The State required that he

give her half the house and alimony. We got her a sizeable

al imony and he has to increase the insurance.    Oregon has
used conservators appointed by the court to relitigate

divorce decrees, invade trusts, and partition property

interests. It    does this to protect the recipient' s ownership
rights, but also to secure the state' s claim on the assets.

California has a law which provides for the automatic divi­

sion of community property for Medicaid eligibility purposes

when one spouse enters long-term care. This eliminates the

need to divorce in order to shelter the well spouse' s share.

Oregon recommends a similar procedure to people who inquire.

"Why force the well spouse into poverty, " it reasons. The

HCFA objects to such property divisions and has placed these

states on the " compliance list. The result is " spousal
impoverishment.




                    The term " nonsupport
                             suits" refers to the strategy,
used successfully    New York, whereby a well spouse at home

                              in

files a legal action against an institutionalized Medicaid

spouse for failure to support. The objective        is to redirect

income of the Medicaid spouse , which      is supposed to be

applied toward cost of care, to the well spouse , without

sacrificing Medicaid eligibility of the institutionalized

spouse.
State Staff Speak Out on Transfer of Assets Problems


During telephone follow-up on the questionnaire responses

state staff were very candid about the issues related to

treatment of resources and transfer of assets.


Some typical comments from big and small States all around

the country are:
     "Recoveries are going down because people are giving

     away their property leaving less and less in estates.

     (MT)

     "We recover from people who are not clever enough to

     transfer their property, and everyone else goes
     scot-free.        (CA)

     "We frequently see deeds quitclaiming excluded

     property to sons or daughters days before death.                      (CA)

     " (Some) people... get a new doctor' s statement every
     6 months saying the recipient would be coming home just

     to keep the home exempt and the recipient on

     assistance.          (MT)

     "People are starting to use a lot of fancy footwork to

     avoid losing the' family fortune.I They ask three
     questions: how should the recipient spend the money;

     what does the family have to lose; and how can we get

     around the rules.   (MD)

      "If an applicant or recipient                is    over assets , they can

     reduce their assets by buying any exempt or excluded

     asset and requalify for assistance.... Families buy

     vehicles and even diamond pendants to qualify (exclude)
     the assets. Personal property                    is  excluded so it can be
     given          away         at any time. (MN)

     "Many, many, many attorneys call on a daily basis

     looking for' loopholes. I There are lots of welfare

     specialists who help people avoid welfare resource

     limits.       (MN)

     "People are actually planning for Medicaid more and

     more. They I re looking for ways to get the Government to
     take care of them. Any eligibility worker would be

     terepted to game the system to get benefits for a
     relative. They are torn about what to do when they know

     of a loophole and are talking to people with a serious

     problem. . . . The people we collect from are the ones not

     planning ahead or not smart enough to figure how the

 system works and take advantage of it.
 unfair. " (MT)
                                                                              It I S really
 "We have had a problem
                        in the last few years with law

 firms specializing 
 how to avoid payments and still be

                                         in

 eligibile for Medicaid. Couched in terms of recipients'
 rights , they go on radio and ,TV talk shows. They picked
 up on the Federal Government I s policy on 'intent to
 return' where the house remains exempt if you only say

 you  intend to return.... The lawyers put it in terms of

  'how to avoid having Medicaid take everything you own. 

 (NY)

"More and more recent refugees from the middle class' are
ending up on Medicaid. Especially in States with medi­

cally needy programs. People are carefully shepherding

their assets to bring them under the exclusions allowed.

(They put disqualifying cash into a new exempt car or

payoff a  mortgage on an exempt home
                                              in order to qualify
for Medicaid.            These are people who are used to dealing

with accountants and attorneys. They are familiar with

the intricacies of tax avoidance, and they put the same

principles to work to get within resource limitations.

social workers in hospitals advise people how to qualify

for Medicaid by getting rid of their property.            (ND)
"Property transferred prior to 2 years
                                                                         is    exempt.
Ridiculous! The State had a statutory 7- year limit, but

was told it was unconstitutional. People should be

required to take care of their foreseeable needs before

they give property away. When you are older , foresee­
able needs automatically include possible catastrophic

medical costs. It' s not right to shirk that

responsibility and depend on assistance.   (CT)
  Financial abuse cases are becoming more and more

common. The family                        members' maj or concern               is
                                                                                     I how can
we get their assets without giving anything to the

nursing home or the Government?    (MN)                             I"
 Life estates go to remaindermen after death. Sky
rockets go off when we see one of these , because an

illegal transfer has almost surely occurred.    (OR)
"Property held    joint tenancy passes by survivorship

                                   in

without probate. Joint  tenancy is being used as a

sheltering tool and not just with spouses.   (CA)
"Once a recipient understands the implications of estate

recovery, there will be no estate left to capture--they

will legally dispose of their property.  We get calls
from attorneys representing recipients every day. Once
     an attorney 
    is  involved, they inevitably blow us away.

     They always figure out a way to shelter the resources.

     We only recoup from , the     naive  and uninformed. Congress
     has to decide if the intent of public assistance

     (Medicaid)    is    to pay for a person I s medical care
     shel ter income for their kids I inheritance.         (UT)
     "Attorneys are getting very innovative with trusts.

     They are constantly looking for language that will make

     trusts okay within Medicaid                        eligibility criteria.
                                                          (NJ)
     "The big problem 
   that we have to follow the SSI regs

                                            is

     even though the SSI population
                                     is different from the

     aged nursing home population. SSI people , for the most

     part, have minimal or no work history, thus minimal

     opportunity to attain property and other assets, but

     that' s not true of a lot of people who need nursing home
     care.   Following the SSI regs virtually assures there
     will be nothing to recoup when the patient dies.     (UT)                "S
     "SSI recipients would be less likely to have resources

     than our nursing home Medicaid population. The problem

     is, the latter ones are the ones with the attorneys....

     (VT)

     "Disposal of assets prior to death 

                                                               is   much more of a

     problem to us than estate                        (recovery) limitation::.     (MN)
     "The bar offers courses 

                                                 in    teaching attorneys to
     rearrange assets so as to throw the cost of medical

     expenses onto the public. They blatantly advertise the

     concept. They promote that it is proper to manage an

     estate so as to make a person eligible for a public

     benefit. This 
 is  recommended and the preferred way to
     do business.     (PA)




     8 We have data from the Supplemental Security Income

program which show that only approximately 1 to 10 percent

of aged SSI recipients
                        own  homes, depending on the State.

This means very little
                         in itself, because institutionalized

recipients-- who are eligible because of the excessive cost of
their institutionalization--are the people most likely to

have homes (and other assets) and to know (or have relatives

who know) how to protect them. Data on home ownership within

this sub- group are not available.

State Recommendations


We asked States to recommend any changes in Federal law

regulation, or practice which would enhance Medicaid estate

recoveries. Eighteen States contributed five strong recom­

mendations related to treatment of resources and transfer of

assets. Two States suggested tightening up the " intent
return" rules "to prevent virtually all nursing home

recipients from remaining eligible indefinitely despite home

ownership.                      Four States wanted the "bona fide effort to
sell" policy reinstated so people would not be forced to

liquidate property hastily and wastefully to the benefit of

neither the family nor the State. 

                                                      six states said we should

close the "loopholes" in transfer of assets rules such as

the ability of an institutionalized spouse to give away

property to a well spouse who can then give it to anyone

thereby protecting the property permanently from recovery to

pay for the cost of care. Five states would like to see the

transfer of assets look-back authority extended from 2 to

3-to-5 years. Seven States asked for restrictions on trusts

which go beyond the provisions of the Consolidated

omnibus Budget Reconciliation Act (COBRA). 9
Clearly, what happens to the property of applicants and

recipients before they qualify for Medicaid 

                                                         is   very
important to the success or failure of estate recovery

programs. Retention of property             in a recipient I s possession
during eligibility            is equally critical. The lien provisions
in     TEFRA were designed to help states achieve this latter

purpose. We discuss liens after the following inset.





        Section 9506 of COBRA provided that maximum

distributions allowable from trusts are to be counted toward

Medicaid eligibility limits whether or not the distributions

are actually made. (National Health Law Program , p. 247.
Some States believe this provision will not solve their

problem with "Medicaid- qualifying trusts.
      WH PEOPLE                 WITH SIZEALE ESTATES   EN UP ON MEDICAID
Medicaid    a means-tested public assistance program,

                      is

i.         , welfare. a How
                     do people who possess appreciable
assets qualify? We can explain this phenomenon best

with a hypothetical, but stereotypical, example.


John and Mary Smith were born   in 1900 when life
expectancy was 46 years for men and 48 years for women.

They married  in 1920, began payments on a home , and

started a family. Theirs was the American dream--
happiness and prosperity-- unti1 the early 1980s. At age

80, with an actuarial life expectancy of 8 years remain­

ing, c John was stricken by Alzheimer I s Disease. d After
a gradual onset, he began to require almost full-time

care. Even with daily help from a home health aide and

the children-- in their late 50s themselves--the
responsibility finally overwhelmed Mary. By 1985, the
family concluded that nursing home institutionalization

could no longer be postponed. 


Robert, the couple                  I s first child and a successful tax
attorney, did some research. He located several excel­

lent long-term care facilities, but was alarmed to learn

that they charge from $20, 000 to $25, 000 per year. f Dad
could easily live several more years.     With Mom getting

frailer every day, their combined care costs could con­

sume the family I s entire net worth (a $65, 000 home owned
free and clear and $35,         certificates of deposit)

                                         000   in

very rapidly. h But , wait a minute, the folks have had
Medicare for 20 years. It does not cover everything,

but surely it will ease the burden.


When Bob visited the local Social Security office, how­

ever, he learne that Medicare does not cover custodial

long-term care. 
 He checked his parents ' Medicare sup­
plemental in$urance policies and found that they were no

help either. J Furthermore, the couple had not purchased

a special nursing home insurance policy which would have

covered custodial long-term care. They did not know

they were unprotected, k and no one ever tried to market

such a policy to them.


As he began really to worry, Bob got some advice from a

colleague w'ho had been through the same wringer. "Talk
to the people at the Department of          Assistance
abc'.': Medicaid, " she said. It has its shortcomings
                                                       Pulic
but Medicaid can be a big help. Somewhat abashed, Bob

arranged an appointment with a Medicaid "
worker" (EW). He learned that John could have $1020 per
                                                            eligibility
month of income and still qualify for Medicaid. 
 This
 presented no apparent problem, because John' s only income

 was Social Security and interest on his and Mary'

 sav ings . The resource I imi , however, was another

 matter. Al though their home would be exempt because Mary
 continues to live there, John could retain only $1, SOO in

 other assets. "Not much, " said Bob. The EW explained,
 however, that John could keep another $1, 500 if it were

 earmarked for burial costs or contained in a cash value

 life insurance policy. Bob observed that $3 300 was

 still a long way from $35, 000. He described the situa­

 tion his parents faced and explained that Mary, having

 little income of her own, would be genuinely impoverished

 when John I s income was diverted to his cost of care
 under Medicaid rules. 0
  At this point, the EW asked who really owned the

  certificates of deposit. Bob explained that his parents
  held them jointly. For purposes of determining Medicaid

  eligibility, such funds are considered available in full

  to the applicant; but they are . also considered fully
  available to the other spouse as well, the EW clarified.

  "Have your mother open a different account in her name

, only. Put your Dad in a nursing home for a couple months.
  Then come and see me and we will cut the paperwork. lIP

Relieved , but with his interest piqued , Bob decided to
do a little legal research. q He learned that if the

j oint tenancy gambit had not worked, there were many,
many others to try. He also found two important pieces

of advice which he immediately acted upon. First, John
should enter the nursing home of choice as a private- pay
patient for several months before converting to Medicaid.

He might have trouble getting in as a Med caid recipi­

ent. Second , John and Mary' s home, exempt now because
of Mary' s residence , could become nonexempt if Mary died

or needed institutionalization herself. The State might

also recover the home' s value from John and/or Mary'

estate. The smart thing to do is transfer John' equity
to Mary and then have Mary deed the whole property to

the family. That legally puts the home out of the

State' s reach.
"Heck of a way to run a railroad, " Bob thought. "Had we

known , we could have transferred all the assets when Dad
first got sick and avoided these complications. Better
yet ,        we could have helped the folks buy insurance to
protect against the         risk.  All I know for sure--it' s a
darn good thing Dad' s too sick to understand that he

spending the end of his life on welfare.


 (The appendix contains documentation for this scenario.

LIENS
section 1917 (a) of the Social Security Act codifies TEFRA'

lien provisions. The HCFA has published regulations on liens

and recoveries at 42 CFR 433. 36.  Unlike the statutory
provision on transfer of assets , which grants an authority

and then restricts it, the provision on liens imposes a

prohibition and then delineates exceptions.


     No lien may be imposed against the property of any

     individual prior to his death on account of medical
     assistance paid or to be paid on his behalf under
     the State plan, except--


The first exception allows States to encumer property,
pursuant to a court judgment, for the recovery of benefits

incorrectly paid. Liens placed after death or for fraud

only are not as important for purposes of this study,

because (1) they do not fall under the strict limitations

for liens filed before death pursuant to ' benefits correctly
paid and (2) they are not as important for preventing

transfer of assets to assure availability of an estate. 

found this aspect of the lien authority to be little used

and the recovery potential only nominal when compared with

the expense of administration and recovery.


The second exception applies to the real property of

institutionalized individuals who must contribute most of

their income toward their cost of care, i. e. , the same
nursing home population we encountered in the transfer of

assets provision. A lien may be placed on the real property

of such an individual prior to death to secure recovery of

benefits correctly paid only if:
      the State determines , subj ect to a hearing, that "he
    . cannot reasonably be expected to be discharged from the
     medical institution and to return home " and


     neither the spouse, minor or dependent child, nor a

     sibling with an equity interest and residency exceeding
     one year lawfully resides in the home.


Any such lien must "dissolve upon that individual'

discharge from the medical institution and return home.


We asked States whether they used liens to secure property

for estate recovery purposes; if so , how; and if not

whether State legislation would be necessary to authorize

their use.    Fifteen states said they use liens and 35 States
said they do not. Of the 35 states which do not use liens

2'" sa; d legislation would be required to begin using them;

5 said legislation would not be required; and 4 did not

  know. Of the 15   states that use liens, 8 use them only
  after a recipient I s death and 3 only 
 in cases of fraud.

  Thus , only four States place liens prior to death to secure
  benefits correctly paid. These four, however, do not all

  utilize the special authority granted in the second excep­

  tion above. New Hampshire has a crafty way to get around

  Federal lien restrictions. It does not place liens on the

  real property of living recipients who are "Medicaid only.

  by the State even if Medicaid is involved.         l0
  It does use such liens , however, on all other cases financed

                                                    This has the
  effect of securing the property for Medicaid recovery also.

  Another State seemed unaware of Federal regulations and did

  not specify when liens could be used legally: '         ''Our rule
  when    doubt, file a lien.
         in                     Thus, only two states (Alabama

  and Maryland) intentionally utilize the TEFRA authority to

  place liens prior to death to secure property for recovery

  of benefits correctly paid.


  California uses liens in two specialized ways. Some other
  States have similar programs. California is in deadlock
  with HCFA over " judgIent liens" which are the state

  substitute for the "bona fide effort to sell" policy (see

  footnote No.     5).   JudgIent   liens   allow the rare individual
  who. does not exempt the home by claiming an intent to return
  to receive assistance while disposing of the nonexempt

  property. Connecticut              has a similar program called
    voluntary mortgages.              These techniques ameliorate a major

  problem for many elderly people who are asset rich and cash

  poor by permitting home equity conversion over a long enough

  period to allow due diligence and dignity. "Voluntary
  liens, " on the other hand, are used only after a recipient'
  death.              California allows the elderly son or daughter of a
  deceased recipient to remain 
           in the home if they agree to a

: lien securing the property for recovery of the State' s claim.

  To take the home immediately would be pointless , because the

  residents might become dependent on public assistance them­

  selves. Oregon gives offspring and other relatives the same

  consideration , although without requiring a formal lien.
 Problems With Liens
 We did not have to ask the States why they fail to use the

 TEFRA lien authority more extensively. They volunteered

 comments like these:


         10 Only     approximately one-third of Medicaid cases in New
 Hampshire are also state supplemental cases and therefore

 covered by the lien       provision.  Furthermore , none of these
 are the high cost nursing home cases.

     "Liens are too difficult to administer because of

     Federal restrictions. Other property retention

     techniques , such as aggressive identification of assets
     reversing illegal transfers , and challenging every

     possible resource shelter, are more effective under the

     circumstances.          (OR)

     "Liens are very important, because they allow the state

     to keep track of property easily. Now it is too easy to

     lose property on the way to a probated estate. The
     property is transferred, reverts to a spouse, or the

     recipient goes off assistance and gets lost. But liens

     are too political. We cannot go to our legislature
     seeking lien authority. Citizens' associations accuse
     us of taking their life savings. It is very sensitive.

     But if the Federal Government said that to receive

   " Medicaid, you must agree to a lien, we would

     participate.          (MT)

      The lien provision  is impossible to administer.

     Effectively, TEFRA made liens impossible. Recipients

     transfer to spouse and spouse to child. The game is so

     easily played. We have a long active history    in liens
     but our eligibility people took a close look at the

     TEFRA lien rules and said' not ' even remotely

     interested. '" (ND)

                                          worth the powder to blow it to

     hell." (CT)
     "The lien provision          isn't




Several States told us that they used to have strong lien

laws and other legal mechanisms to assure personal respon­

sibility by people with means. We know that such programs

were very common prior to the establishment of Medicaid.

Today, however, few States have strong statutes on public

assistance liens even for State-only programs. Some excep­
tions are Alabama , which may require an individual eligible

for benefits (because of a temporary property or resource

exclusion) to grant the agericy a lien on the property, and

Utah, which makes receipt of medical assistance, in itself, a

lien on the recipient'       s estate.    Likewise, Ohio law says "to
the maximum extent permitted by Federal law and regulations

medical assistance is a lien and shall remain a lien until

satisfied.           New Hampshire' s policy manual says "the client
and      his  spouse, if any, must as a condition of eligibility

acknowledge reimbursement and agree to the imposition of a

lien before assistance can be granted.            Missouri may propose

legislation soon to permit a " quasi-lien " or claim on real
estate held       in   j oint tenancy. It  is important to note that

states which do have lien laws do not necessarily enforce

           . At the other end of the spectrum are States like

Texas, whose homestead law precludes the filing of liens

against homes, and Colorado, which interprets a State

constitutional prohibition on making old age pensions

condi tional upon a promise to repay as forbidding Medicaid
liens and estate recoveries.


The main objections to liens expressed by States were

poli tical sensi ti   vi  ty, TEFRA "loopholes , " administrative
 difficulties and expense , and the possibility that liens

would discourage the elderly from seeking care. On the other

 side of the ledger are Alabama and Maryland' s experience.

Alabama said, "Public acceptance has been very good. We see
 some irate people, but not many. Most people appreciate what

the State contributes for their elder' s care. They are
willing to accept the (elder' s) obligation to repay up to the
elder I s equity.        Maryland said, "Advocacy groups for the
elderly support the lien program and enabled its passage.

Both Alabama and Maryland indicated their lien programs were

not excessively difficult to administer. As to whether liens

and estate recoveries discourage the elderly from seeking

care, Oregon said it is . a question of " pay me now, or pay me
later. "   By the time people are so desperate that they seek
Medicaid, their only other option is to sell their home

immediately to pay for care. Many people are grateful for

the opportunity to receive long-term care at Medicaid rates

and repay the State after their own death and when the

residence   is    no longer needed by dependents.

Perhaps the most important reason for the unpopularity of

liens , however,  is the authorizing legislation itself. The
TEFRA proscribed the States from placing a lien unless an

individual is permanently institutionalized and the home is

unoccupied by specified dependent relatives. Those exclu­

sions   cover much of the real property of the elderly. What
remains would presumably be countable toward eligibility

limits   , and hence usually disqualifying anyway, on the   prin­
ciple that a permanently institutionalized recipient with no

qualifying dependents can hardly "intend to return" home.

Thus, the population covered by the lien statute is very

nearly a null set.

         11 The      proscription on liens is strongly enforced
sometimes. Connecticut used         to require people with term life
insurance policies 
      (i.    no cash value, so not disquali­
fying) to make the State partial beneficiary of the policy.

That way, if the recipient died, his nursing home costs would

be reimbursed. The HCFA stopped this practice saying the

State may not encumber a recipient' s assets. Now, "Someone
receives the benefits from the policy who did not contribute

to the cost of care. They enrich themselves from Medicaid
recipients at the expense of the taxpayers.

Alternatives to Liens


In the absence of a strong lien program to retain property

in recipients I possession during their period of Medicaid
eligibility, states must either employ alternatives or allow

the techniques discussed  in the transfer of assets section
of this report to erode Ithe  estate. It is very much to the
advantage of a recipient s family and frequently recommended
in the legal literature, for example, to transfer even exempt

property from a recipient to a spouse and thence to an adult

child or other third party. This procedure prevents the

property from becoming nonexempt if the well spouse dies, and

it places the property permanently beyond the reach of estate

recovery .
The State of Oregon compensates for the ineffectuality of

liens by taking a strong legal stance on behalf of the

recipient and the state. We have explained above how

Oregon, pursuant to State statute, has conservators

appointed to protect the property rights of recipients,

files suits to reverse illegal transfers, relitigates

abusive divorce decrees , partitions undivided property and

invades trusts. These techniques, although they do not

combat the statutory interspousal transfer "loophole"

discussed above, help the state in other ways to retain

property in the name of the recipient from whose estate it

may legally be recovered to reimburse, in whole or in part,

the cost of the long-term care. In combination with strong

property ownership identification techniques and the chilling

effect of strong enforcement on concealment and evasion,

Oregon believes that it retains property in recipient estates

as well as can be done under current Federal law.


To find out if other states use similar techniques, we asked

about the use of guardianships or other legal action to

contest property settlements, trusts or inappropriate trans­

fers. We found that 12 states do so intervene, at least

occasionally, and 38 do not. None, however, is as active or

effective in these endeavors as Oregon. Pennsylvania
actually told us that the responsibility of a guardian 


                           to preserve the property for the

heirs: "There
qqite the opposite,    e.,

                is a general feeling that if someone has to be
hurt , let it be the State, especially when there are prospec­
tive heirs involved. There is no law in the state which

makes repayment of assets to the state a high priority.

Sta      e Recommendations
Of the 11 maj or recommendations made by states in response

to our          none was more frequently and strongly made

                 inquiry,

than the one on liens. Nine states recommended loosening

Federal restrictions on the placement of liens for the

purpose of securing property to be recovered from estates to

repay Medicaid benefits correctly paid. Specifically, they

said 1 iens should bind a State' s claim on a recipient'
temporarily exempt property (1) if there is a spouse or

dependent child, so that the asset can be recovered when

they no longer need it, (2) during the lifetime of a

surviving spouse or dependent child if the recipient

predeceases them, (3) if a recipient returns home and goes

off Medicaid if benefits were paid, (4) if the property is

excluded because it produces income or for any other reason

and (5) if the property is jointly owned to prevent its

inuring without an estate to a joint tenant. Tyical are

the recommendations of New Jersey and North Dakota:


                          "Federal law should allow the filing of an

                          unconditional lien at the time of application

                          for all Medicaid recipients.   (NJ)
                          "Make the lien a condition of eligibility and

                          have it attach to the property, not the

                          individual or estate.   (ND)

If any property remains  in a Medicaid long-term care

recipient I s
            legal possession after death, States have the
option, subject to specified restrictions , to recover from
the estate. Only having examined the difficulties with

transfer of assets and liens, however, can we appraise the

effectiveness and potential of Medicaid estate recoveries.

States cannot recover what is not there.


ESTATE RECOVERIES

section 1917 (b) of the Social Security Act codifies TEFRA'

estate recovery provisions. The HCFA has published regula­
tions on liens and recoveries at 42 CFR 433.     Like the
provision on liens, the statutory provision on recoveries

                                                            36.
begins with a prohibition which is then qualified by

exceptions:
           No adjustment or recovery of any medical assistance

           correctly paid on behalf of an individual under the

           State plan may be made, except--

The first exception allows recovery from the same nursing

home population we encountered before in the sections on
transfer of assets and liens. They are the people who are

required to contribute most of their income toward their

cost of care. Recoveries may be made from their estates or
upon sale of a property subj ect to a lien.
The second exception permits recovery from the estate of

 any other individual who was 65 years of age or older when

he received such assistance.
The recovery authority granted in these two exceptions is

circumscribed by the following provisos. Any recovery based

on either exception may be made only after the death of any

surviving spouse and when there is no surviving minor or

disabled child. A recovery based on a lien may be made only

when (1) no sibling with residency of at least a year nor

(2) any son or daughter with residency of at least two years
who provided care which postponed institutionalization is

lawfully residing in the home and has been since the date of

insti tutional ization.
As we know , this convoluted statutory provision delimiting

recovery from liens is very nearly moot, because all but two

states eschew liens for this, as well as the aforementioned,

reasons. The provisions permitting recovery from the

estates of individuals who are over the age of 65 or

institutionalized, however, are fairly widely used. We turn
now to the application by states of this authority.

state Performance


As noted earlier, all States and the District of Columia
responded to our questionnaire. Dropping Arizona, which has

no Medicaid long-term care program, leaves 50 respondents

which might have estate recovery programs. Of these, 

recover benefits correctly paid and were able to give us

data on both the amount of recoveries and the cost of

recovery. 12 Seven other States recover benefits correctly
paid but could not provide data on the amount of recoveries

(two States) or the cost of recovery (five States). Twelve
states recover incorrect benefit payments only. Few of these

were able to provide data on either the amount or the cost of

recoveries. Seven states have no estate recovery program

but have at least considered starting one. Seven other

States have no program and no plans for one. (See the chart

on the following page.





     12 Alabama  does not do estate recoveries for correct
benefi ts routinely. Because the State I s lien program
achieves basically the same purpose, however , Alabama is

included.
     MEDICAID ESTATE RECOVERY PROGRAMS

                    BY TYPE OF PROGRAM




AK . N
HI. G




                                                    MA. G
                                                  . . RI .
                                                    cr. G
                                                    NJ . G
                                                    DE .
                                                    MD. G
                                                    DC. G
              N/A




           G = General Recovery States = 24
         ! ., Recover Only Incorrect Benefits =
             N = No Estate Recoveries    = 14
The 16 states and the District of Columbia which recover

benefits correctly paid and reported dollar figures for the

amount and costs of recoveries:


     employ 62. 95   full time equivalent (FTE) staff in the
     function,
     at a cost of $2,   005, 396   (or $31, 857 per FTE),

     to recover $28, 919, 560      or
     $14. 42 for every $1 spent on recovery.        (See tables 1
     and 2)
These same States reported only $8, 065, 878 in " probate
recoveries " to HCFA in. 1986. California, which reported $12
million to us for estate recoveries and only $71, 486 to
HCFA, accounts for most of the discrepancy. Massachusetts

reported $4. 8 million to us and none to HCFA. The same is

true for several other States. Various factors account for

these discrepancies. There are " nonprobate       " estate
recoveries , recoveries reported unspecifical1y to HCFA as
"third party liability,  " and some state-only recoveries mixed
in with the figures reported to us. These items should not

account for more than a fraction of the differential how­

ever. The States are required by law to return the Federal

share of Medicaid estate recoveries to the united States

Government. Sometimes , however, the amount of the Federal

share may not be clear. For example, some state programs

are funded with only State money. states may reimburse
these programs first before returning any money to the

Federal Government for combined Federal/state programs.

After the State-only costs of a deceased recipient are paid,

there may be little or nothing left in the estate to reim­

burse for Medicaid (i. e., " Federal/State costs). States are
reputed to be adept at minimizing the Federal share of

recoveries with this and many other tactics. A thorough
audit of the function is needed to determine whether the

Federal Government is getting its full share of the proceeds.

      . --- --           p-                                                                                                            ;!.
                                 =-.




                                                                                      TIB 1



                                                      MUIBIES
                                                                  II
                                                           IIIQI E5
                                                                  ,.
                                                                                               IB  ISIQI    FI MTA

                                                                                      1U.
                                                                                                                             Po                                 TDUl.


Stte
                 Estate
            RecxJyedes
                                CCt of
                                Rea                   CCt
                                                     Pe FT
                                                                   1U.               EI t1
                                                                                       Redpien Reipien
                                                                   Reip;on ($ Millicn) 0W.
                                                                                                            TDUl
                                                                                               (s Millicn) Reipion
                                                                                                                            0W


                                                                                                                                                              (S Mil icn)

                               $ 55,                                   20, 741                                                         14.       316 159            37.
            12,                                17.                  131                     1B.                                        90.                          OI.
                  1oo                          11.    22,              31,                  274.           35, 491                     25.       217                59.
                                 129                                         145             61.                                        92.                         29.
                                                                    . 4,                     59.            11 ,                        60.                         14.
                  62,                                                        367            45.3           75,                                          367         65.
                                         450                                 017            42.            104 746                     62.                          43.
                         071     104                                                        195.           42,                         22.                          56.
                  453             21 ,                                 29, 169              20.                    763                 22.              974         S2.
                  150                                                     012                41.                   412                  38.                          95.
                  316                                 34,                    123             49.                                        55.3            674         116.
                                                      22,                                    58.                   418                  63.                         118.
                                 150                        118                                                    493                 413.      58,                1J.
                                                                       12, 216               76.                   018                  8:.      152,               23.
                                                      26,                  619               91.                                       117.      100                25.
                  23,                                                     645                30.                                        27.             210         109.
                   69                    667          22.                                    30.                   213                  33.                          89.


Totl             919                           62.   531                              $ 3, 40.                                   S 3   744.      454 847      $11 810.

                         941                                                 710            35.            112                         413.      561                9i.
                  CB,                                                                       21.            91,                                                      75.
                                                                             561            328.                                       27.                          746.
                                                                                            44.                                                  35,                00.
                                                                    110.                    0%.                                        7!.                          S!.

Total                    189                                                 453      $ 3, 43.                                   S 5, 148.              186   S1'   CI.

                 715 749                                            716               $6    84.            67,                   $ 8   89.     11,3,          12, 849.
Ot'
 St.                 -0-        N/A            N/A    N/A                    547      $ 4   75.3      1,3,3                      $ 5, 20.                     $14 515.

Gr. 7

Tot. 1           715 749                                          1,3,                $11, 59.                     'l4           $14   09.       219          S5 ,3.


   1 Meicaid
                      aota ca fra oficial ICA-2D aota fo
        Divisim of Mecaid COt Estimes.
                                                                                              Fel     FY 198.            Sa:            Ofice of th    Ac,
   2 EJllZ ICfIl; irellZ
                                                       Ot.
        .I
                                                SNF In ICf

                         lists: as estate      "";es or th "Ps:                        to ICA as                    "";es" in Fel FY 19.
   4 lrdier ro
             La- tnd estae                            re;es. This                  filJ is   8 j:jeciO"       bs en pB                   re     I" h..IIC_

   5 AR: Ac;"" Rea $tte.
   6 A few 

                   ot Stes            re IIpte reiesll to tCA bJ th ar                                 O1ly fo           bEits           in:lv reiwd
   7 EJllZ th teritories In AriZO.




                  -oJ'
!,.





To estimate the total current value of Medicaid estate

recoveries nationally, we started with the figures reported

to us. These figures should be the most accurate , because

they come directly from program staff. For states which did

not report a recovery figure to us , either because they are

county administered or because their recoveries are handled

by a contractor, we used the figure they reported to HCFA

for " probate recoveries " or, as in one case , a best estimate
based on past recoveries. Two states which claimed to do

general estate recoveries were unable to report a dollar

figure to us, reported none to HCFA, and were not very

active programmatically. Dropping them from the analysis

gives us a conservative estimate of $41, 716, 000 for Medicaid
estate recoyeries nationally based on benefits correctly

paid.   Some small portion of this may include recoveries of
benefits incorrectly paid , but we found such recoveries to be

nominal at best in most States.


Although our questionnaire did not ask why 26 States fail to

recover from estates for benefits correctly received, two

States volunteered these comments:
            "We have not pursued estate recoveries because we .
            do not think it is worth it. Very few people in
            nursing homes have estates.   (SC)

            "We just do not see estate recoveries as worthwhile

            to pursue. Too costly administratively.      (WV)

Telephone follow-up elicited similar comments from other

States. Based on the experience of active estate recovery

programs recounted below , however, we conclude that Medicaid

recipients in nursing homes frequently do have estates,

sometimes large ones. We may also say with confidence that

recovery from these estates is very cost-         effective. It is
true, however, that actual effectiveness levels vary widely

among States.


Estate Recoverv Effectiveness Ratios


To compare the effectiveness of the 22 active recovery

states , we computed 7 achievement ratios. State scores on
each of these ratios are shown in table 2. We assigned a

rank to each state based on its average rank on the seven

ratios. This allowed us to array all 22 active recovery

States based on their overall success with the program.

Some interesting comparisons emerge.


On the " recovery ratio     . i. e. , dollars recovered per dollar
spent, the range was from $1. 73 in Rhode Island to $51. 36 in
 3.sSClch'.J'Spt.
$1, sixth        in
                      t5.
                  Oregon I s recovery ratio was only $13. 07 to
                       rank, and below the mean. But Oregon ranked
first on all six of the other ratios. This is not difficult

to understand if we look at the marginal utility of a State'

dollar investment in recoveries. For example , Massachusetts

wi th a recovery ratio four times Oregon ' s, recovers less than

one-fourth as much as Oregon overall per elderly Medicaid

recipient.   Presumably, Massachusetts could add staff,
recover mu h more, and still maintain a satisfactory

recovery ratio. The bottom line, therefore , is not the

recovery ratio, but the total amount cost-effectively

returned to Medicaid to meet the needs of other recipients.


Several different ratios are necessary to rank States fairly,

because of wide variations among States in the percentage of

recipients who are over age 65 and in the percentage of
vendor payments for people over 65. Recipient over age 65
a mean of 15 perce t.
range from 7 percent in Illinois to 28 percent in Texas, with

                        Vendor payments for recipients over
age 65 vary from 20 percent in Illinois to 54 percent in New

Hampshire , with a mean of 38 percent. These variations skew
the individual effectiveness ratios. For example, New

Hampshire, with nearly double the percentage of recipients

over age 65 (25 percent) of Oregon (13 percent), has very low

ratios based on recipient age even though its r9tio based on

total recipients is quite close to Oregon ' s. A composite of
different effectiveness measures tends to average out these

discrepancies in caseload characteristics. 13 To obtain an

overall ranking of effectiveness in estate recovery, we

assigned a score in each ratio equal to each State s rank.

Then we sumed the scores and ranked the averages. That gave

a list of active recovery States by level of effectivene





     13 We did not weight the effectiveness ratios because

we had no basis or rationale to do so.

                               " .

                                                                               TAB
                                                              1E1!:ID ESATE
                                                                    EFFECTIVESS
                                                                                RE
                                 Nurs. Hom        Nurs. Hom       OVer 65            OVr 65         Total     Total         TotaL
         Recovery                 Recipient        Paymt         Reef pi ent         Paymt     Recipient     Payt           Score
                                                                                                                           (S"" 01   Ovrall
State Retio        Rank         Ratio Rank       Ratio Rank     Ratio Rank       Ratio Rank   Ratio Rank    Ratio Rank      Ranks)   Rank

                                                                                                                             121
        19.                     91.                              26.
                                67.                              59.
                                95.                              30.
                                16.                                                                                          126
        23.                     22.                              21.
        51.                    109.                              45.
        11.                     45.                              28.
        21.                     15.                                                            1.27                          104
        10.                     29.                              23.
                                51.                              35.
        13.                    160.                              95.                          23.
         2:90                   13.                                                                                          134
        13.                    327.                             199.                          26.
                                                                                                                             149
                                40.                              29.
        12.                     20.                                                            1.38                          108
Mean    14.                     65.                              28.
 FL 8   14.                     16.                                                            1. 14                         102      15­
        14.                     30.                              11.
 INg    14.                                                                                                                  1'1
        14.                    100.               1. 1           84.                          13.
        14.                     53.                              T7.

Mean    14.                     47.                              19.
ARs
Mean    14.                     58.                              24.

              Recovery          at1 0 = Recoverl es/Cost 0 Recovery
                                                                                                                         States by
              Nursing Han Recipient Ratio = Recoveries/Nursing Han                                                       Overa II
              Recipients (i . , SNF + ICF Other)                                                                           Rank
         3 Nursing Kan
                                      Paymt Ratio = Recoveries/Nursing Han
              Paymts C1.               , SNF + ICF Other   PaytS)
         4 OVer 65
                              Recipient Ratio = Recoveries/Recipients Ovr Age          65
         5 Ovr 65 Paym Ratio
              Recipients                       = Recover;es/Peymts for ovr Age 65


              Total Recipient Ratio = Recoveries/Total Recipients
         7 Total Pa)m,
                                  c /lat fa' = Recoveriesltotat Pa)mts
         8 ' Cost        of   reery data, unvailable for these States. IlTte
                              of the other States S14. 42/S1     an a rank of 5.
        9 ARS:
                         Acti   e Recovery States
                                             -.
     National Pro; ections
     Because states vary widely in estate recovery effectiveness,

     from nonparticipation to recovery of 1. 7 percent of total
     vendor payments, it is reasonable to ask what the national

     recovery potential would be based on various levels of

     effectiveness. To compute such estimates, we multiplied the

     various effectiveness ratios by national totals and then

     averaged across all of the ratios. We did this for the

     ratios of the most effective State (Oregon), for a success­

     ful large State (California), 14 and for the mean of all the

     ratios. The result was that if every state in the country

     recovered from estates with the same level of effectiveness

     as Oregon, then the national potential would be $589

     million; if at the level of California, then $123 million;

     and if at the level of the mean of current active recovery

     states , then $74 million.
                                                            TAB
                                                      IEICAID ESTATE   1E1ES
                                            (Nationl Prjectian in S ..i II 101)
                Nursing Han    Nursing Hom        Over 65         Ovr 65           Total        Total
  State
                 Reef pi ent
                Ratio Proj.
                                Paymt
                               Ratio Proj.
                                                Recipient
                                               Ratio Proj.
                                                                  Paymt
                                                                Ratio Proj.
                                                                                 Recipient     Payt           Average in
                                                                                Ratio Proj.   Ratio Proj.     S Miltion
  Oregon       327.    5450.        5603.      199.     561'.          S705.    26.   S53O.        565.         S589.
  Mean          58.      80.          69.       24.       76.            70.            74.             75.       74.
  Cal Hernia    91.    S125.        S162.       26.     S 80.          S183.          S 71.        S112.       SI22.


ratio are then  slJ
*The projection are based on the ratios times nationl totals less the territories an Arizon. Factors for each

                      and averaged to give the nationl projectim in the Last colUJ. For exmple: Oregon recovers
5X of its Medicaid paymnts to pepLe over Bge 65 fran estates. If 5): of        supaymnts were recovered nationlly,
total recoveries would be 5705. 0 million. Based on Oregon' s recovery of S327. 44 per nursing han reipient , nationl
recoveries wouLd be 5450. 4 milLion. Adding all the projection for each of the ratios and averaging gives 

                                                                                                            us 8'
national projection of S 589a 2 million based on Orel s levl of effectivessa




               14 California
                          shot up from $2 million in estate
     recoveries for 1983 to $12 million projected for 1987. 

     bel ieve that estate recoveries may continue to rise in

     California. Program staff were not so confident, however,

     for reasons discussed in this paper.

We believe these projections are very conservative

considering that the current recovery levels on which they

are based have been achieved without any technical assistance

and with very little emphasis on estate recoveries either

nationally or within the states. It is also important to

note that these projections are realistically achievable

under current law, which has been shown above to be very

disfavorable to estate recoveries. state staff who were

asked the question estimated that Medicaid estate recoveries

could be increased by a factor of from three to five times by

eliminating statutory "loopholes " in transfer of assets

liens, and recoveries . For reasons we will discuss in the

conclusion, these estimates could be far below the true

potential.  (See the chart on the following page.

Several States discerned an interesting relationship between

estate recovery potential and Medicaid eligibility policy.

For example, HCFA recently compelled Alabama to accept a

recipient' s stated "intent to return" to a home as sufficient
cause to exempt the home instead of requiring a doctor'

certification.   Consequently, many more homes will be
exempted and the State s lien recoveries will go up.

Minnesota, on the other hand, used to have very liberal

Medicaid eligibility policies. As they have become increas­

ingly restrictive, however, more and more people have had to

liquidate their property before becoming eligible. As a
consequence, less property remains in recipients' possession

to be recovered from their estates. The question becomes

whether the public is better served by strict eligibility

policies which leave little property to recover from estates

or liberal eligibility followed by recovery of benefits after

death. An important consideration, according to Minnesota,

is that people rendered ineligible by strict eligibility

policies tend to consult attorneys, find "loopholes" and end

up on Medicaid anyway.


Of . the 12 States which reported they recover only incorrectly
paid benefits, only 4 provided recovery amounts. The others
said recoveries were nominal, minimal or they did not know.

Recoveries reported ranged from $3, 600 in Louisiana to
 $400, 000 in Pennsylvania , with recovery ratios between $3.
to $1 and $1. 24 to $1 respectively. Based on this informa­
tion,   we decided to drop incorrect benefit recoveries from

this analysis. Although fraud recoveries and policy

enforcement are important, they are not a large nontax

revenue source for Medicaid like general estate recoveries.


Oraanization and Procedures


Among  he 24 States with any general estate recovery

involvement, we found a wide range of organizational

               MEDICAID ESTATE RECOVERIES

         Actual and Potential for United States

                                        ($ Mi 11   ions)
 EST A TE  RECOVERY DOLLARS

       1000

                                                                    PROJECTE
        900

                                                                    ACTlAL

        BOO


        700


        600


        500


       400


       300


       200

                                           123

       100



                     ACTUAL     NEAN     CALIFORIA ORGON FE. LAN*




I1/JNOII HOI( KUCH
RECIPrENT ESTA TC
AScT'/LIE/ErA TE
                     COO BE RECOVE
                     IF FEL
                       REVEES
                                    TR OF .
                                II $TR'T
                              LAtI ON
awareness and sophistication. One state I s third party
liability  (TPL) director did not even know his state
recovered from estates. . At the other end of the spectru,
States like Oregon , California and Connecticut have highly

organized programs with skilled personnel in central units.

General estate recovery programs break down into four

organizational categories. six states have central estate

recovery units--usually part of a broader recovery,

collection or TPL division--which employ experts dedicated

exclusively to estate recoveries. Five states have estate
recovery specialists in their central offices who work

basically alone , but with clerical and legal assistance as

needed. Four States merely share the responsibility for
estate recoveries among general TPL or collections staff.

Finally, nine states have no real centralized responsibility

for. estate recoveries. They depend on eligibility workers
in   he field referring cases to legal services divisions

often at the county level. Of the 10 most effective

recovery States , 9 have central units or specialists
dedicated to estate recoveries.


We asked the general recovery states about a series of

procedures and techniques in an attempt to determine what

works best. For example, we asked what procedures , if any,

they had to trigger an estate recovery effort when a

recipient or spouse dies. Of the 24 States with general

estate recovery programs , only 18 had such a procedure. The
six which did not were , unsurprisingly, among the second half

tier of States by order of estate recovery effectiveness.

The most common procedures used were:

     Eligibility workers report deaths of recipients over 65

     including (sometimes) assets and other information

     (seven States).


     Estate recovery staff research legal notices, court

     records, vital statistics or other public information


     15 Centralized and specialized estate recovery units

are very important, several States pointed out, because of

the technical expertise needed to recover from estates.

Eligibility workers have neither the knowledge nor the time

to pursue recoveries. Estate specialists need to know the

law, real estate principles and skip tracing as well as

every nuance of Medicaid eligibility and resource policy

related to estates. wi th a central unit to which they can
refer difficult property cases , eligibility workers are less

likely to ignore problems they do not understand.

     sources (six states , one of which had a computer match
     with vital statistics).


     Computer generates a list of deaths of recipients
 over
     age 65 (four states; one other is planning such a

     system) .
     Personal representative or family member is required to

     notify the state when filing for probate (three
     states) .
     Nursing homes report recipient deaths (two   States).
     Probate court or registrar of wills reports probates

     (two states).


The more sophisticated procedures may not be much more

effective than the simple process of having eligibility

workers report the deaths of recipients who possess assets.

To delay until someone else reports a death or until an

estate is filed, says Oregon, is like " waiting for the gu
to go bang before you duck.    You are too late to protect

the State' s claim. Also , the State may not need to know

everyone who died or generated a probate. The State may

only need to know who died with a recoverable estate. Some
States recover, however, not only from recipients who die

while on assistance, but also from past recipients and/or

spouses predeceased by recipients. These States need to

match all probates against their lists of current and past

recipients and surviving spouses.


We asked how many of the 22 active estate recovery states

attempt to track people who go off assistance in order to

recover from their estates when they die. Fifteen do.
the 10 most effective estate recovery programs, only

California and Washington, D. C. do not track ex- recipients
for estate recovery.  Presumably, a long-term care recipient
in these jurisdictions could drop from Medicaid just before

death and avoid estate recovery.

Many Medicaid recipients die without wills (intestate). Some

of these--only 1 or 2 percent in Oregon--die without heirs,

dev isees, or claimants. Unclaimed assets in such estates

revert  (escheat) to the State. States which have efficient
Medicaid estate recovery programs will lay claim to assets in

estates whether or not the recipient dies intestate. These
States are required by law , as explained above , to return the

Federal share of the proceeds to the United States

Government. states which do not have efficient, general
estate recovery programs (the majority) do not recover from

estates whether the recipient dies intestate or not. In such

States , any heirs , devisees or claimants may file for the
 proceeds of an estate. If there are no claimants , then the

 proceeds escheat to the State. In either case , if the State

 does not have a fully effective estate recovery program, the

 Federal Government gets nothing.


 Spousal Recoveries


 We asked what, if anything, a State does about recovery when

 a Medicaid recipient dies in a nursing home , leaving an

 exempt spouse in an excluded home. Forty-four states
 including 16 of the active recovery States , do nothing. Many

 said that Federal law does not permit recovery from surviving

 spouses or other exempt dependents, a dubious interpretation

 of the law:


      .. . there does not appear
                               to be any time limit on
      recovery. Thus,  action could be suspended for a
      lengthy period after a recipient' s death while a

      surviving spouse or child remains alive. (Deford,
      p. 137)

 Several States explained that because there is no estate of

 the recipient (the property passed to the spouse with right

 of survivorship) and no liability of the spouse (who was

 never on assistance), there is no recourse of spousal

 recovery-- "Catch 22" . 16 Of the six States which do recover
. from spouses, two recover only if the property was solely

 owned by the recipient. This eliminates most spousal
 recoveries, because most assets are jointly held. Of the
 remaining 4 States, all of which are among the top 10

 recovery programs, North Dakota and New Hampshire do some

 but not a lot of recoveries from spouses. Only Oregon

  (No. 1) and Utah (No. 9) actively track and consistently
 recover from spouses whenever possible. Note again that

 nothing stops a surviving resident spouse or other exempt

 dependent from transferring the property, which once

 belonged to a recipient, to a related or unrelated third

 party thereby removing it from a State' s recovery authority

 altogether.    Spousal recoveries, like estate recoveries in
 general, are usually made from people who are unaware , or

 not philosophically disposed
, to take advantage 



      16 Connecticut  used to put a " paper lien " on a spouse
 property when the recipient dies just to hold the property

 until it could be recovered from the spouse I s estate. The
 HCFA made them stop this practice. With no way to keep the

 property in the spouse' s name or to know when the spouse dies

 or the property is transferred, Connecticut terminated

 spous 1 recoveries.
provisions in the law permitting them to shelter their

property.
Other Practices
Several other conditions are important to successful estate

recoveries. We asked how many States have a special standing

in probate proceedings      , i.              e., the right to collect ahead of
certain other claimants. Twenty states do and 30 do not. Of

the 22 active estate recovery States, 15 have special probate

standing and 7 do not. Of the 10 most effective estate

recovery states , only Massachusetts and Washington, D. C. do
not have special standing. Al though there was some variation
            s:
among States, the most common probate standing was similar to

Maryland '    "The Medicaid agency is coequal wi

creditors of the estate. Priority claims such as probate

                                                                    h general
costs and fees , funeral expenses, litigation costs, and the

costs relating to the last illness are eligible for payment

prior to the claim of the Medicaid agency. However , claims

of beneficiaries named in a will or heirs in intestacy, are

subordinate to the agency I s claim.

Based on an exemplary practice in Oregon which is authorized

in State statute, we asked how many States attach bank and

nursing home accounts automatically upon the death of a

recipient. Seven states said they have procedures to attach.

Of these , five attach only in the sense that assets in such

accounts become part of the formal or informal estate distri­

bution process. Another State attaches only if benefits have

been incorrectly paid. Only Oregon routinely attaches bank

and nursing home accounts expeditiously following . all
appropriate recipient deaths.


Accounts Receivable
Sometimes , when an estate is probated , claimants have the
choice whether to accept a contract , note , or physical

property, or to permit the estate to be liquidated and accept

cash.  Liquidation often means loss of value. as when con­
tracts are sold at a "discount" or hard assets are auctioned.

We asked how many States accept installment payments and/or

hard assets in compensation of their claims so that they have

to deal with accounts receivable and property management. 


      17 Property    management can be a nuisance. Oregon has
approximately $150, 000 worth of personal property which has

aCci.:m,ulat8d in a safe deposit box since the last auction
seven years ago. The State has received mobile homes, auto­

mobiles, farm equipment, furniture, rings, watches and even

a gold mine in compensation for its claims. Estate recovery

staff have not used a Government pen since receiving $5, 000
Most states said they require liquidation within the estate--

they are not in the loan or real estate business. Four
States, however, reported accounts receivable. Only 1 of
these, Oregon, was among the top 10 recovery States. Oregon
has over $5 million in accounts receivable, which generate an

average of $85 000 per month in revenue for the State

Medicaid program. 18 Alabama, Missouri and Montana also have
accounts receivable, but they average only $36, 000 per State.


Oregon' s accounts receivable program, although highly
profitable for the State, is also intended to help families

keep homes they would otherwise have to lose in order to

satisfy claims on a loved one I s estate. Often a family mem­
ber moves in or the home becomes a rental and the proceeds

go to pay the State' s claim until the family owns the house
free and clear again.   Thus, the elder is able to use home
equity for cost of care while the family retains the home in

the end. This is   an example of the elusive "home equity
conversion" applauded in the long-term care funding litera­

ture, but with a public sector assist. If the same program

were available during recipients I lifetimes, it would be even

more beneficial. In essence , home equity conversion is what

would happen if Medicaid were available to anyone with a

catastrophic long-term care need, conditional upon a lien on

their property recoverable after their deaths and after the

deaths or seniorities of their dependents.


Exemplarv Practices

We asked States to tell us what they consider their most

exemplary estate recovery practices. Thirteen states

responded with 22 practices. The most common exemplary

practices related to reporting deaths or estate filings and

then matching this information to Medicaid eligibility

records. These included manual and automated systems to

obtain information on deaths and estates from local welfare

offices, probate courts , vital statistics agencies, nursing

homis , and newspaper clipping services. One such practice
stands out. Connecticut requires that anyone filing an

application for administration of a decedent I s estate


wQrt   of advertising/promotional pens from one recipient I s
estate.
     1S For purposes of analysis and comparison with the

other States , Oregon I s total Medicaid vendor payments for
Federal Fiscal Year 1985 were $238 650, 352; payments for
recipients over age 65 were $80, 665 357. The State had
152, 502 reci ients in 1985, of whom 20 018 were over 65.
probate court must declare if the deceased or any . of his or

her family ever received public assistance. If so , the

probate court notifies the State and the State files a claim.

Six States mentioned practices related to legal enforcement

of a State I s claim. These included the general need for
strong legal support, lien filing, getting the State
appointed administrator of small estates in the absence of

anyone else, using conservatorships to get assets returned to

recipients, attaching financial accounts, attacking shelters,

and using open-ended mortgages. Illinois and Oregon

mentioned the importance of a central estate recovery unit

which frees local offices to concentrate on eligibility and

less complicated legal issues. California cited its practice
of recovering Medicare Part B buy-in premiums paid by the

State as well as Medicaid vendor payments .19  (See table 4.
State Statutes


To find out about the importance of State statutes for

Medicaid estate recovery programs, we asked three questions:

which statutes authorize estate recoveries; which restrict

them; and what legislative initiatives are planned or

pending. We found there is not always a strong relationship

between the laws and the practices of estate recoveries.

For example, the District of Columia, although planning

some, has no authorizing statutes , regulations or policies,

but collects from estates anyway. Virginia, on the other




     19 Oregon   has an interesting arrangement with an heir
finding service. Heir finders locate money, real property or

other assets for which the owner or heir has not been found.

They find the owner or heir and offer information on the

windfall in exchange for a percentage. Sometimes the heir is

a Medicaid recipient, in which case Medicaid. has a claim
which is like " picking money up off the street.   This
happens five or six times a year. Heir finders always check

with Oregon' s estate recovery program early in their search.

If Medicaid has a claim , they need look no further.


Connecticut has a program, as most States probably do

whereby money left inactive in an account is escheated to

the State after a certain period  (7 years in CT).   The
estate recovery program checks the State- published list of

such accounts and files a claim when it finds a recipient I s
name. It recently found $35, 000 belonging to an incapaci­

tated recipient. Given the prevalence of mentally debili­

tating diseases like Alzheimer I s, lost financial accounts
like these may be more common than is generally realized.

                                               TABLE 4

                               _ICAID ESATE       IEIXT
                                       STATE   CHISTICS
                                 (se COirv 
               ite)


                                                                                ACDlTS
        PHOG VRFT 10EN                    INTI                                  RECVBLE
 ST TYPE ASST     PHII   OVRC TRST   SUIT RTRN GUR PHOC STND ATCH TRCK   LIEN   (S1000)




                                                                                  000




 SO




I CO





, IN





. NM




  WY
   ;i
      NY K     .K
..                                                       .-
                     aDllI U'IB Fa          STATE   DlISTICS TAB
Col.. Col..
     . Title                                   EJII ion
     State        Stardl" two-character State Ibeviat;on cod.

     Program      G I: GenraL estate reovry         progrll for which     we have dati en
     Typ          recoveries ,      costs of recovery,         full-time eqivalents (FTEs).
                  GN Ii gerel estate recovery program for which we Leek on
                  more of the three dateelemts for "G. I = pror.. which
                  recovrs incorrectly paid befits onLy. NN = no estate revery
                  progrem , no pleme. NY Ii no estete reovery progrll , bi
                  considering on.
     Veri fy      )( I: State verifies--uslly bychecking bBks--whether or not 8n
     Assets       applicant or reipient has assets eve if poseion of suh
                  assets is deied. Blenk I: State acceps denial I.less stroLy
                  suspiciou.
     Idetify      X 11 State v      rHies reaL proprty owrship anor transfers by
     Proprty      conlting COtty         assessor an rerdr record on aLL case.
                  Blank = State accepts applieant/recip;entl s deiaL U"less

                  stronly suspiciou.


     Divorce      X = State dos not pennit divorce or proprty                disposhion        ;ch
                  d;vest assets of i 11 spe.   Blank = divorce               allow.
     Trusts       X = Stlle dos not permit irrevocable living trusts for
                                                                                       PJses
                  of obtaining Meicaid eligibility. Blank;: truts permitted.


     Suits        X = State dos not permit no-sl.rt lewits IS a mens to
                  obtain Meicaid eligibility. This refers to suits filed by the

                  no-institutionlized spoe to 91in access to incom otherwise
                     l ied toward the cost of care of en institutionl fzed spoe
                  on Meicaid. Blank = Suits penmitted.
     Intent to    X = State reqires proof , uslly I meical dotor' s certifica-

     Return       tion , of abil ity to return hor before a hom is exeqted baed
                  on "intent to return. II Blank = State follow SSI/HCFA rules.'no
                              contradictory.
                  proof of intent req;
                  is self-
                                             unless recipient I S stltemt of intent

     Guardi en    X = State uses      gurdianips or other        legal action to contest
                  resource avoidance tecni               Blank = Legal action . is     not
                  taken routinely.
     Procedure X = Stete has a prOecre where                  it is notified of a recipi­
                  ent'    ard/or
                  be taken.
                                     spe' s deth so that estate reovery action may
                                   Blank 8: State has no such procedre.
     Standing     X = State has speial standing or metion in State
                                            probte law.
                  Bler* = No spedal position.  

     Attach       X = State ettaches bank or I'rsing hor           sccOUts            the deth
                  of 8 Meicaid recipient. Blank = State dos not attach accouts.
     Track        X = State tracks ex- recipients who leave the nursing flcility
                  in order to recover from thei restates. Blenk = Do not track.


     Spe          X = State recovers befits receive by a Medicaid recipient

                  1rOO the estate of the recipient' s surviving
                  spoal recoveries.                                          spe.
                                                                     Blank = No


     Liens        Y = liens are used ciring recipientl s lifetime to secure pro­
                  perty for estete recovery based on befits corretly                receive.
                  YO = Liens are used only after the recipient' s death. YF;: Liens

                  are used only for recovery        of befits
                                                          incorrectly received.
                  :: Liens are not used an State legisl8t;on wold be reqired to
                  permi t thei     ruse.
                                     NN = Liens are not used but State legislation
                  is not necessary. NU = Lien are not us                an the ne for
                  State LegisLation is      unkn.
     Accouts      AILnts shown represent dollar totals ow the State based                 on
     ReceivabLe   the estate recovery of t;rn peymnt vehicles su 8S rotes
                  contracts ara mortgages.

hand, does few estate recoveries, but has some very strong

laws which abolish survivorship between joint tenants, allow

the agency to petition for reformation of trusts created

to attain eligibility, and make grantees liable for the

uncompensated value of certain disqualifying property

transfers.
Although there is no one-to- one relationship between

effectiveness in estate recoveries and legal clout, it

should be noted that the most effective recovery state has

one of the strongest state statutory foundations. Oregon'

estate recovery statutes authorize legal action to

(1) appoint conservators, (2) set aside abusive property
transfers , (3) attach financial accounts , (4) recover from
spouses' estates and (5) file a priority claim in probate

court.
Two states have noteworthy statutes qn interspousal

responsibility and joint tenancy. North Dakota law says:
     The parties to a marriage are mutually liable

     to any person who in good faith supplied either

     party with articles necessary for their support.

     Such persons may recover the reasonable value from

     either party except in the cases where by law one

     party is not liable for the support of the other.

A New Hampshire statute provides that:


     The estate of every recipient, and the estate of a

     recipient' s spouse residing with said recipient, if
     any, owned severally or as j oint tenants, shall be
     liable for all assistance granted to the recipient.

A State' sauthority, if any, to recover benefits from a
successor's estate when the recipient dies first , is
critical to maximizing potential recoveries.


Several States responded to our request for information on

laws which restrict estate recoveries. In Florida, home­

steads are constitutionally exempt and they inure to any

heir before the State. By statute , New Jersey may not
recover from estates under $3, 000 nor for amounts under

$500. A class action suit in California seeks to prohibit

spousal recoveries. Likewise, New Mexico believes its

    unity property statutes might preclude recoupment from a

nonrecipient spouse. The state of Michigan has an attorney

general' s decision limiting recoveries to incorrect benefits
in the absence of a state statute expressly authorizing

recovery of benefits correctly received. Pennsylvania, on

the other hand, prohibits recovery of correct benefits in

its " welfare code, " although such recoveries are authorized

in law. Alaska has no statute authorizing or forbidding

estate recoveries, but public hearings on the subject led to

the conclusion that "Alaskans think nursing home care is a

right and that they should be able to leave assets to heirs.

In one large State , where estate recovery legislation has

been blocked for 2 years , the opposition did not come from

the elderly, but rather from the Bar Association. The Bar in
that state trains attorneys on Medicaid resource avoidance

for estate planning purposes. Even Oregon limits estate
recoveries in some ways. The state does not recover benefits
paid for in-home care. This exception was permitted to

encourage people to opt out of nursing homes and into home

care.  Unfortunately, the people in home care tend to be the
ones who own homes and the people paid by the state to take

care of them are often the same people who will inherit the

homes. Thus , the state (and Federal Government) lose money

on two counts.
Several State legislative initiatives are underway.

California has proposed to permit a claim upon the recipi­

ent ' s share of a spouse I s estate and to require attorneys of
record to notify the State when settling the estate of a

deceased past or present recipient. Massachusetts is seeking

legislation to make resources which are exempt for eligibi­

lity purposes, nonexempt for purposes of estate recovery, and

to require petitioners for probate to notify the State if the

decedent was ever on assistance. New Jersey is trying to

revise a statute which has been interpreted to preclude

recovery if there is a surviving child of any age. The court

case which elicited that interpretation brought New Jersey'

previously aggressive estate recoveries program to its knees.

Minnesota I s proposed statutory changes would allow spousal
recovery and permit a local agency direct access to estates

under $5000--what is called an " affidavit of claiming

successor" in oregon. 20    North Dakota professes a commitment
to a "legislative initiative whenever necessary to overcome

adverse judicial decisions" on estate recoveries.


Several States which do not recover from estates or recover

only benefits incorrectly paid are planning some legislative

initiati ves.  Kentucky might pursue estate recoveries
depending on " staffing availability and cost-effectiveness
data from other States.    Ohio is also reviewing cost-

effectiveness. In   Texas, a special State legislative

     20 If an   estate in Oregon involves less than $35, 000 in
real property, less than $15 000 in personal property, or

less than $50 000 combined, heirs must file an " affidavit of

claiming successor" with the probate court , the revenue

department , and the publ ic assistance agency.
committee is reviewing a proposal to allow general Medicaid

estate recoveries. In   general, however, momentum as well as
understanding, are lacking. Michigan told us, "Every year

we submit our over-65 probate legislation. The legislature

refuses to pass it. They call it the ' vulture bill. ' Every
year I get up and testify along with ' eligibility staff and

every year they vote it down. We can never muster enough
support to get the bill out of committee on either the House

or Senate side.
state Recommendations on Estate Recoveries


Five of the changes which states recommended in Federal law

and policy to enhance estate recoveries had to do directly

with estate recoveries as opposed to transfer of assets and

liens. The most frequent recommendation was that estate

recoveries should be made mandatory. Seven States made this
suggestion. An eighth State, Kentucky, recommended elimina­

ting all Federal restrictions on estate recoveries. A ninth,
North Dakota, felt strongly that the Federal Government

should not force any particular recovery process on the

States and should encourage flexibility. Rhode Island made a

common observation that people "beat the system all the time

and clear legislation is needed to make sure . that those who

are able, pay back the Medicaid program for the benefits they

receive.
Three States recommended that technical assistance be

provided on how to establish and operate Medicaid estate

recovery programs. Specific requests included guidance on
record keeping, establishing and filing claims , automated

recove techniques , recovery in large States with many
counties , and sample forms.
Five states thought the Federal Government should provide

incentives to the States to establish Medicaid estate

recovery programs. All of these recommendations involved
giving states a disproportionate share of estate recoveries

compared to their Federal Medical Assistance Percentage

(FMP) or matching rate. For example, States might be

allowed to retain half of . all recoveries even though the
original benefits were funded with 70 percent Federal and

only 30 percent State funds. From the Federal perspective

one wQnders why this kind of encouragement would be needed

when states can recover easily at a rate of $10 or $15 to

$1. On the other hand, Minnesota used incentives very

suc essfully to animate its county administered program.
Al though the counties contribute only 5 percent of the cost
of Medicaid in Minnesota (45 percent comes from the State

and 50 percent from the Federal Government), they are

allowed to keep 25 percent of all recoveries (25 percent

goes to the State and 50 percent to the Federal Government).

This incentive system may help to account for Minnesota I s
third place rank among Medicaid estate recovery programs.


There has been some argument whether Federal statute permits

recovery of correct benefits received before age 65 by an

institutionalized recipient. The law clearly prohibits
recoveries of benefits received before age 65 by noninstitu­

tionalized recipients. In general, most states have acted as

though no benefits received before age 65 may be recovered

from anyone. Thus , eight States recommended permitting

recovery of benefits received at any age.


The final State recommendation relates to both transfer of

assets and estate recoveries. Four States said we need to

find a way to handle " joint tenancy with right of survivor­

ship. " The problem is that when property is held in joint

tenancy, the property goes to the other tenant when either

tenant dies without an estate being probated. Joint tenancy
ownership may occur between nonspouses as well as spouses.

There is strong indication that people are using joint

tenancy in both real and personal property to avoid public

assistance resource limitations as well as to prevent estate

recoveries. You cannot collect from an estate when property

passes automatically to a nonliable joint tenant with no

estate filed. Once the property is in the joint tenant'

possession with full ownership status, the State may no

longer have a claim. With regard to setting up joint

accounts to which a Medicaid applicant/recipient has no

access without the consent of the j oint owner, thereby
excluding the account from eligibility resource limitations

one state said, "This is the biggest loophole in the

reguiations. You could drive an 18-wheeler through it.

States recommended making the applicant/recipient I s property,
which is held in j oint tenancy, available for purposes of
eligibility and/or recoverable after the recipient I s death,
when the remainderman either dies or tries to transfer the

property. Medicaid eligibility conditional upon liens or

 voluntary mortgages " might achieve this purpose.

Montana capsulized the 70 recommendations we received from

34 States:
     "Applying transfer of assets restrictions to exempt

     property, applying liens in all cases , and

     recovering benefits received at any age would

     remove most of the limitations and allow Medicaid

     estate recoveries to be multiplied by factors of

     three, four or five.
CONCIDSION

Despite the asset control authorities granted by Congress in

TEFRA, many elderly people with moderate to large assets

still receive Medicaid. Hith few exceptions, their property

remains unencumered during the period of eligibility which

may include years of nursing home institutionalization.

Most Medicaid recipients have no legal responsibility to pay

back the cost of their publicly-funded care when they and

their dependents no longer need the exempted property.

Based on evidence from state Medicaid staff and the legal

literature on estate planning (see the Bibliography), it

appears that well-to-do people with access to attorneys and

accountants are the most likely to be able to avoid public

assi,stance resource limitations.
Although Medicaid' sexpensive long-term care benefit is
available to people with sizeable assets, the program

encompasses only a relatively small percentage of the

nation'   s poor.

     Nationally, Medicaid covers only 35. 8 percent of
     poor elderly persons, 34. 0 percent of poor adults

     between the ages of eighteen and sixty-four, and

     49. 5 percent of those under age eighteen. (Holahan
     and Cohen, p. 99)


A recent Urban Institute book concluded that "Medicaid was

originally conceived as a way of broadening the public

provision of medical services to the poor and of ensuring

more uniformity in service provision among the states... but
over the years Medicaid has increasingly concentrated on

providing long-term institutional care to the elderly and the

disabled, many of whom are not officially poor.    (Holahan
and Cohen, p. 1)
Our findings show that states currently recover less than

$42 million per year from the estates of deceased Medicaid

recipients. If all   states recovered at the same rate as the
most effective state (Oregon), national recoveries would be

$589 million annually. Current laws, regulations, and

policies , as we have observed however, make estate recoveries
very difficult. If the recommendations in the following

section were implemented , some state Medicaid staff believe

that the current potential of Medicaid estate recoveries

could be augmented by a factor of three, four or five. When
we consider that (1) the total home equity of the elderly in

the United states is $750 billion, 21 (2) Medicaid exempts

homes , and (3) catastrophic long-term illness strikes all
economic levels , it is plausible that Medicaid estate

recoveries could generate very large sums indeed. (See     the
illustration which follows this section.


A large nontax revenue source generated by Medicaid estate

recoveries could be recycled to help the truly destitute.

It is possible , however, that enhanced estate recoveries

would have more far-reaching effects on long-term care

funding. Faced with the certainty--which is almost nonexis­

tent today--that accepting care from Medicaid means paying

back the cost out of one s estate, people might seek other.

alternatives. Such alternatives include Social Health

Maintenance Organizations (SHMO' s), continuing care communi­

ties, targeted savings accounts and private long-term care
insurance. To pay for these nonpublic assistance options,
the elderl would have to turn more to private home equit
conversion 2 or to assistance from their adult children.
It is their children, after all, who stand to inherit what­

ever property remains after the costs of long-term care are

paid and who currently reap the windfall of Medicaid


         21 "
           Seventy-five percent of Americans 65 and older own
their homes, with the vast majority owning outright, reports




                        , p. 8)
The Commonwealth Fund. The average value of the 13 million

homes owned by senior ci tizensis $60, 000, for an estimated

total equity of more than $750 billion.     Lonq Term Care
Manaqement Newsletter

     22 Reverse mortgages and sale/leasebacks
                                              , the principle

vehicles of home equity conversion, have not been highly

popular in the marketplace. "CUrrent Medicaid eligibility

rules discourage the use of home equity to finance long-term

care by making the home a protected asset.    (Uni ted States
Congress , Office of Technology Assessment, p. 450) In the
absence of such protection , people might be more inclined to

tap their home equity to pay for private long-term care

insurance premiums. The interested reader should consult the

National Center for Home Equity Conversion in Madison,

Wisconsin.

       23 Home 

              quity conversion and help from adult children

could readily be combined. More and more frequently, we see

adul t   children buying their parents Ihomes in a familial
sale/leaseback arrangement. The children do this for a tax

wri te- off . Proceeds from the sale augment the parents'
income and could be used to purchase long-term care

insurance.
subsidies. We must emphasize that the issue is enrichment of

nonneedy adult heirs , not denial of care to the elderly.
                                                           For
those who opt to rely on Medicaid , or have no other choice,

eligibility conditional upon a promise (secured by an auto­

matic lien) to repay benefits from their estates would assure

all elderly people of (1) access to care (2) retention of

home property as long as it is needed by ,spouse and

dependents, and (3) the dignity of paying their own way in

the end.

 .. --



                 MEDICAD ESTATE RECOVEES
              AR ONLY  TH TIP OF TH ICEBERG



                                    CU
                                     AR
                                           ESTATE RECOVEES
                                         ONLY $42 KILLON
                                           PER




                          Because
                      of statutes

                     and policies

                     which exempt

                   home equity and

                  discourage estate
               recoveries , the Medicaid
              program recovered only $42

             million last year from estates.

             It is reasonable to ask how much

            might be recovered to help care for

           the needy if the statutes and policies

           encouraged estate recoveries.



              TH HOME    EQUITY OF TH ELDERY
                        IS $750 BILLION


      In the U. S. today, people over 65 own $750 billion

      in home equity. During 1985 , this country spent

     $35 billion on nursing home care. Thus , the annual

  cost of nursing home care is 4. 7 percent of the elderly I
   home equity. At any given time , however, only 5 percent

     of the elderly reside in nursing homes.       We know that
        Al zheimer I s Disease, Parkinson' s and stroke--the

debilitating illnesses which fill America I s nursing
 . afflict rich and poor alike. Therefore, it is not

                                                         homes--
 unreasonable to believe that much of the long-term car

  funding crisis could be resolved by harnessing the home

equi ty of the elderly. Using recommendations made in this

  report, home equity conversion could be achieved with a

  minimum of disruption to the families of the stricken.

                        RECOMMNDATIONS


Recommendations numer   1 through numer 4 are the
responsibility of the Health Care Financing Administration.

Implementation of these recommendations will require some

policy, regulation and statutory changes. Statutory changes
will require the preparation of a legislative proposal by

the HCFA followed by departmental approval. Recommendation
numer 5 is the reponsibility of the  Office of Inspector
General.
The HCFA reviewed and commented on a draft of this report.

We met with representatives of the agency to discuss their

comments. We will continue to confer with HCFA on related

issues.
This report has also received close scrutiny from an

intradepartmental work group on estate recoveries. The work

group raised many questions which point toward further

research and analysis. For example, we are exploring a

proposal to tighten the "intent to return" rules instead of

easing or eliminating them as proposed here. This would

increase the pressure on people to sell homes and spend down,

but would eliminate the need to recover home equity from

estates. Another idea under review is governmentally

sponsored home equity conversion. The proposal is to give

people a publicly insured line of credit on their homes which

they can use for home care, institutional care, or long-term

care insurance premiums. The family would pay back public
costs, up to but not exceeding the value of the property

secured , after the deaths of the beneficiary and all
dependent relatives. These ideas and many other related

issues will be explored further in forthcoming OIG studies.



RECOMMDATION #l--ELIGIBILITY   AN TRTM       OF RESOURCES
FINDING: Some HCFA,    SSI, and state Medicaid policies
promote retention of assets during Medicaid eligibility

while others encourage precipitous liquidation of property

with concomitant losses in value. Assets retained by

recipients , in the absence of estate recovery programs, pass
  encumbered to  heirs  at the expense of the taxpayers.

Assets liquidated, sheltered or concealed to obtain eligi­

bility are lost as a long-term care funding resource also.

    apacitated elderly people are sometimes financially

abused by people who want to take their property, while at

the same time, qualifying them for Medicaid nursing home

benefits.
 RECOMMDATION: Change Medicaid rules to permit families to
 retain and manage property while their elders receive long-

 term care. Specifically: eliminate SSI "intent to return"

rules as they apply to Medicaid long-term care recipients.

Reinstate and broaden the "bona fide effort to sell"

exemption. Allow Medicaid recipients to retain more income-
producing property such as " contracts of deeds" or rental
homes. Require agreement to liens and estate recoveries as
a condition of Medicaid eligibility for people with

property.  Encourage State Medicaid programs to protect
recipients and their property from financial exploitation

through conservatorships , legal representation , and property
management when necessary.


IMACT: This policy would ease the financial impact of
catastrophic long-term care costs on the elderly and their

families , giving them time to cope with the problem. Total
Medicaid costs would decline as estate recoveries increase.



RECOMMDATION #2--TRSFE OF ASSETS
FINDING: Despite almost universal State implementation of
the TEFRA authority to restrict transfers of assets for the

purpose of obtaining Medicaid eligibility, people are still

able to give away property to qualify for assistance. This
may be done by using the legal "loopholes" recommended in

law journal articles or by deceit and concealment.

REqOMMDATION: Strengthen the transfer of assets rules so
tha  people cannot give away property to qualify for
Medicaid. Specifically: improve     State verification of
property and transfers. Clarify that the "transfer of

assets" restrictions apply to all property including that

which is ,. or would .be, exempt from eligibility determination.
Expressly prohibit the transfer of property to . spouses and
other dependents which is permitted under current law.

Extend the current 2- year "look-back" period to 5 or more

years. Have HCFA publish regulations on transfer of assets.

IMACT: More property will be retained by recipients to
reimburse Medicaid for their cost of care after they and

their dependents are no longer in need.



RECOMMDATION #3--LIENS
FINDING: state Medicaid programs need a way to track
property owned by recipients and ensure that it is not

transferred or otherwise disposed before recovery of

Medicaid benefits can be accomplished. Liens achieve these

objectives most efficiently. While permitting liens, ' TEFRA
placed so many qualifications on their use that only two

states have employed liens to secure property for recovery

of benefits correctly paid.


RECOMMDATION: Require a legal instruent as a condition of
Medicaid eligibility to secure property owned by applicants

and recipients for later recovery. Specifically: Make
liens, or some other form of encumrance, a condition of
eligibility so that the recipient I s interest in any property
solely or jointly owned will inure, up to the cost of care

paid by Medicaid, to the Medicaid program when neither the

recipient nor dependents need the property further. Promote
home equity conversion by using liens, " voluntary mortgages

 open-ended mortgages " and accounts receivable to let people

extract their equities gradually while they receive

assistance.
IMACT: Mandatory            liens would secure the State and Federal
Government I s investment and permit Medicaid recipients to
retain needed property while receiving highly expensive, but

essential care.



RECOMMNDATION t4--ESTATE RECOVEES

FINDING: Less than half  of the States pursue Medicaid estate
recoveries for benefits correctly paid. Of those which do, a

few are very effective, but most are not. The HCFA and State

Medicaid managements place little emphasis on retention of

recipient property or estate recoveries. The TEFRA authority
for estate recoveries, as for transfer of assets restrictions

and liens, is only voluntary. Many State staff believe that

TEFRA limitations hobble estate recoveries without safe­

guarding legitimate recipient interests.

RECOMMDATION: Increase estate recoveries as a nontax
revenue source for the Medicaid program while steadfastly

protecting the property rights of recipients and their

dependents. Specifically: Make estate recovery programs

mandatory like other forms of third party liablity. Provide
technical assistance on estate recoveries, so that States can

implement quickly and easily to generate an immediate cash

flow for the Medicaid program. Promote awareness of the
importance of real property ownership and estate recoveries

for Medicaid funding. Allow estate recovery of benefits
received before age 65. Permit estate recovery in cases of

joint tenancy with right of survivorship. Require spousal

and dependent recoveries upon death or seniority (of a minor

child. )
IMACT: Based            on Oregon' s experience--even under current
rest:ri('i;   i'le   ). 'IPS , regulations and policies--estate
recoveries can recoup 5. 2 percent of Medicaid nursing home

costs , 5. 0 percent of Medicaid payments to people over age
  , and 1. 7 percent of total Medicaid vendor payments . With

enhanced legal authorities and greater programmatic emphasis,

the contribution of estate recoveries to Medicaid'
s program

resources could be truly staggering.


RECOMMDATION    #5--FU STUDIES
FINDING: We have a great deal of circumstantial evidence

about public assistance resource avoidance and estate plan­

ning to qualify for Medicaid. No hard data are available,
however, on the extent of these practices. We also are

unaware of how much Federal money is spent by the Legal

Services Corporation and other national programs to promote

Medicaid eligibility for people with property . We cannot
account , without further review , for large discrepancies in
amounts of estate recoveries reported to us versup " probate
recoveries " reported to HCFA (for purposes of reimbursing the
Federal share of recoveries.    Finally, a priori, it would
seem that the ability to receive Medicaid while preserving

assets is a strong disincentive to the purchase of private

long-term care insurance. Is this true , and if so, would

programmatic changes such as those recommended here remove

the disincentive and promote nonpublic assistance options to

funding long-term care?


RECOMMDATION:    At a minimum , the following actions should
be taken:
     Conduct a comprehensive study of the transfer of assets

     problem to estimate how much equity is being diverted

     from long-term care costs at the expense of the Medicaid

     program. To what extent is the Federal Government

     funding this diversion by training attorneys and

     counseling prospective Medicaid recipients? .
     Conduct a thorough audit of Medicaid estate recovery

     programs to determine if the Federal Government is

     receiving its full share of the proceeds.


     Perform a review to determine whether the availability

     of Medicaid without encumering assets has a chilling

     effect on the marketability of private sector risk-

     sharing products such as long-term care insurance.


IMPACT: Results of these studies could point the way to a

more equitable and efficient utilization of economic

resources for the satisfaction of catastrophic long-term

care needs.

                                                                                          , "





                                                          BIBLIOGRAHY

        , "Comments: The Effect of Asset Transfers on

Medicaid Eligibility, University of Pennsvl vania Law Review

Vol. 129, April 1981, pps. 882-910.


                   , "Parents in Nursing Homes: A New Burden for

Kids?              50 Plus , December 1983, Vol. 23 , No. 12 , p. 9.

                    , "Who Can Afford a Nursing Home?,                      Consumer Reports

May 1988 , pps. 300-311.
Adler, Michelle, Suzanne Kitchen, and Albert Irion, 
                               Databook
on the ElderlY: A statistical Portrait , Macro Systems, Inc.,

for the Department of Health and Human Services under Task

Order Contract No. HHS-100-84-0036, 1987.


American Association of Retired Persons , "A Profile of Older

Americans, " Washington, D. , 1986.
American Association of Retired Persons , "Before You Buy:

Guide to Long-Term Care Insurance, " 1987


American Association of Retired Persons, 
                               Lonq-Term Care
Research StudY , January 30, 1984.


American Association of Retired Persons Preferences of AAP
Members for Specific Lonq-Term Care Insurance Product

Features , Towers, Perrin, Forster and Crosby, February 28,
1985.
American Bar Association, "Doing Well by Doing Good:

Providing Legal Services to the Elderly in a Paying Private

Practice, " commission on Legal Problems of the Elderly,
Washington, D.   , 1985.


American Council of Life Insurance,                                 1986 Life Insurance Fact

Book, Washington, D.                                    , 1987.

American Council of Life Insurance, "Growing                                Older in
America: How the Baby Bomers I Parents View                                 Retirement
Council Review , September 1985.


Avery, Robert B.         , "Survey of Consumer Finances,

1983   Federal Reserve Bulletin , September 1984, pps. 679­
692. T is   urvey was a joint project of the Board of
Governors of the Federal Reserve System, the Department of

Health and Human Services, and five other federal agencies.

 Avery , Robert B.        ., "Survey of Consumer Finances,
 1983 : A Second Look,   Federal Reserve Bulletin , December
 1984.
 Bisbee ,Gerald E., Jr., " Long-Term Care Insurance:
 Separating Fact from Fiction, An Investment Banker I s   Point of
 View, Contemporarv LTC , May 1987.
 Bisbee ,Gerald E., Jr. and Mark J. Simon, "Is Long-Term Care
Insurance a Panacea?" Provider , Vol. 13 No.    , June 1987

pps. 16-19.


Branch , Laurence G., "Impoverishment for the Elderly: A Case
Study of Financial Risk, America' s Health Care Challenqe:
New Directions for Business. Governent and Individuals
Northwestern National Life Insurance Company, 1986

pps. 14-18.


Brickfield, Cyril F. , "Coverage Won't
 Ensure Service
Availability, Provider ,  Vol. 13, No.   , June 1987
pps. 19-20.


Brickfield , cyril F., "Long-Term Care Financing Solutions Are
Needed Now, American Health Care Association Journal

Vol. 11, No. 6, October 1985, pps. 11-15.


Brickfield, Cyril F. , "Who will Pay for Long-Term Care

Carinq ,Vol. IV , NO. 3., March 1985, pps. 23-26.

Burwell , Brian 0. Shared Obliqations:    Pulic Policv
Influences on Familv Care , Systemetrics/MCGraw-Hill, Inc.,

under a subcontract to HCFA Contract No. 500-83-0056

May 1986.
Carpenter, Letty, 
Medicaid Eliqibilitv for Persons in Nursinq

Homes , Health Care Financing Administration, unpublished
draft, January 26, 1988.


Clark, Robert L. and Daniel A. Sumer, " Inflation and the
Real Income of the Elderly: Recent Examples and Expectations

for the Future   The Gerontoloqist , Vol. 25, NO. 2, 1985

p. 146.

Coberly, Sally, "Financing Catastrophic Long-Term Health Care

Expenses of the Elderly: The Role of Private Long-Term Care

Insurance " background paper for the Assembly Special
Committee on Medi-Cal Oversight of the State of California,

    -USC Long-Term Care Gerontology Center, January 1986.

Coberly, Sally, "Long-Term Care Insurance: Problems and

Prospects " background paper prepared for the South Carolina
Health and Human Services Finance Commission, Andrus

                                                          , "





Gerontology Center, Uni versi ty of   South California , Los
Angeles, California, March 1985.


Cohen, Marc A. , Eileen J. Tell and Stanley S. Wallack   The
Lifetime Risks and Costs of Nursing Home Use Among the

Elderly, Medical Care , Vol. 24 , No. 12, December 1986,
pps. 1161-1172.


Cohen, " Marc A.        al. , "The Financial Capacity of the
Elderly to Insure for Long-Term Care        The Gerontoloqist

Vol. 27 , No.    , 1987 , pps. 494-502.


Commonwealth Fund and ICF Incorporated Old, Alone and Poor:

A Plan for Reducinq Povertv Amonq Elderly PeoDle Livinq

Alone , Commonwealth Fund, April 16 , 1987.
Council of Economic Advisors, "Chapter 5: Economic Status

of the Elderly, The Annual ReDort of the Council of

Economic Advisers , united States Government Printing Office

Washington, D.  , 1985 , pps. 159-186.


Crum,  Barbara, proj ect director, SDousal ImDoverishment

Related to Residential Health Care Placement , New York

Department of Social Services, recent but undated.


CUnningham, James E. , "Long-Term Care Insurance and Us--
Perfect Together, American Health Care Association       Journal
Vol. 11, No. 6, October 1985, pps. 26-28.


CUrtis, Richard E. and Lawrence R. Bartlett , "High Cost of

Long-Term Care Squeezes State Budgets, Carinq , Vol. IV,
No.   , March 1985 , pps. 28-31.

Curtis , Rick, John Luehrs and Diane Justice, editors
Buildin   Affordable Lon -Term Care Alternatives , National
Governors I Association Center for Policy Research,

Was?ington, D. C., April 1987.


DavIdson ,   Stephen M. , Jerry Cromwell and Rachel Schurman,
 Medicaid Myths: Trends in Medicaid Expenditures and the

Prospects for Reform    Journal of Health Politics. Policy,

and Law , Vol. 10, No. 4, Winter 1986 , pps. 699-728.


Davis , Clayton , "Solving Common Problems in Long-Term Care
and Medicaid Financial Eligibility, " The Alabama Lawver

Volume 46 , Number 6, November 1985.


Deford ,   Gill, " Medicaid Liens , Recoveries, and Transfer of
Assets after TEFRA      Clearinahouse Review , June 1984.

Delbaurn, Charles M. , "Financial Planning for Nursing Home

Care: Medicaid     Eligibility Considerations    Ohio State Bar
  Association ReDort , Volume 57 , Numer 14
                                            , April 2 , 1984

  pps. 372-381.


  Department of Health and Human Services CatastroDhic Illness

  EXDenses , report to the President, November 1986.
  Department of Health and Human Services ReDort of the Task

  Force on Lona-Term Health Care POlicies
  Printing Office , Washington, D.               Governent   , u. S.
                                   , September 21, 1987.

 Doty, Pamela, Korbin Liu and                   Joshua Wiener, " An
 Long-Term Care Health Care                                            OVerview of
                                                Financ ina   Review , Vol. 6 , No.
 Spring 1985 , pps. 69-78.


 Doty, Pamela , "Long-Term Care for the Middle-Income Elderly:

 Options for Increased Private Financing, " unpublished paper
 by HCFA policy analyst , 1986.


Doty, Pamela, " The Politics of Long-Term Care Insurance:
Medicaid a Deterrent to Private Coverage, " unpublished

manuscript by DHHS analyst, 1987.


Duncan, Glen, " Pulic Attitudes About Contingency Planning
for Long-Term Care Needs, " Beverly Foundation, July 1986.


Dunn , Donald H. , "Easing the Burden of Nursing Home Costs
Business Week , No. 2883 , March 11, 1985.


Edi tors   Carina , "Editorial " Introduction: Long-Term Care
                    of

Insurance   Carina , Vol. IV , No. 3., March 1985, pps. 3-11.
Employee Benefit Research Institute, "Issue Brief:
Long-Term Care, " No. 48, November 1985.              Financing
Federal Council on the Aging,
                                                 Health Care Studv for Older

Americans: A Staff ReDort , DHHS Pulication No.
                                                (OHDS)
86-20961            , 1985.

Feinstein , Patrice Hirsch, Marian Gornick, and Jay N.
Greenberg, editors Lona-Term Care Financina and Deliverv

Svstems: EXDlorina Some AI ternati ves: Conference
Proceedinas ,                   Health Care Financing Administration,
Washington, D. C., January 24, 1984.
Feldman , Penny H. and Margaret Gerteis , "Private Insurance
=or Medicaid Recipients: The Texas Experience,                         Journal of
Health Politics. Policv and Law , Vol. 12 , No.
                       Sumer 1987

pps. 271-298.


Forman. Frank , Shirley A. Hanson, Ron JOhnson , and 

Larson (long-term care insurance entrepreneurs , twoDale   M.

                                                       of whom--
underlined--have companies located in Bellevue, Washington)

 Convincing the Consumer to Buy,
 American Health Care

Association Journal , Vol. 11, No. 6, October 1985,

pps. 16-18.


Freudenheim, Milt, "Business and Health: Nursing Home

Insurers Rise, The New York Times , March 17 , 1987.


Frontline ,                "What About Mom and Dad " May 21, 1985
Program #320.
General Accounting Office, "An Aging Society: Meeting the
Needs of the Elderly While Responding to Rising Federal

Costs " GAO/HRD-86-135, September 1986.
General Accounting Office , "Long-Term Care Insurance:

Coverage Varies Widely in a Developing Market

GAO/HRD-87-80, May 1987.
General Accounting Office , "Medicaid and Nursing Home Care:

Cost Increases and the Need for Services are Creating

Problems for the States and the Elderly, " GAO/IPE-84-1,

October 21, 1983.


Glenn , Karen, "Health Care Spending: Growing Through the
Year 2000   Medicine and Health: Perspectives , Vol. 41,

No. &5, June 22, 1987.


Greenfield, Peter and Barbara A. Isenhour, "Medicaid for

Nursing Home Care: Some Estate Planning Considerations,
Washinaton State Bar News , Volume 40 , Numer 6, June 1986.

Grimaldi, Paul L., "Long-Term Care Policies: Defusing a

Financial Time Bomb   Health Proaress , November 1987,
pps. 33-40.


Grossman, Steven A., Chairman, Technical Work Group, 
              Report
to the Secretarv on private Lona-Term Care for the Elderlv

draft, November 1986.


Gunter, Bill, "A Regulator' s Response to Long-Term Care

Financing, American Health Care Association Journal
Vol. 11, No. 6, October 1985, pps. 22-23.


Hansen , Karen , editor Lona-Term Care for the Elderlv:
Leaislator I s
             Guide , National Conference of State
Legislatures, Washington, D. C., May 1987.


Hay, Joel W. and Richard L. Ernst, "The Economic Costs of

Alzheimer I s Disease American Journal of Public Heal th,
Vol. 77 , No. , September 1987, pps. 1169-1175.

 Health Care Financing Administration, "20 Years of Medicare

 and Medicaid
 Supplement , December 1985. F:jnancina Review , 1985 Annual
                 Health Care

 Health Care Financing Administration, 


 ReDort. Short Term Evaluat:jon of Med Grants and Contracts

                                             d:Selected Issues
 especially Chapter 4, "Institutionalized Recipients

 pps. 121-152 , October 1984 , Contract No. HHS-100-82-0038.

 Health Care Financing Administration, 


 ReDort: A Decade of Med                   Grants and Contracts

                              d ExPer:jence. F:jscal Years 1973

 throuah 1982 , Baltimore, Maryland
 No. 18-P-97265/5-05. Any citations , September
                                       in       1985 , HCFA Grant

 1984 edition unless this 1985 edition isthe text arementioned.

                                           expressly  to the


 Health Care Financing Administration, " National Health
 Expenditures, 1985    Health Care Financina Notes , Numer
 September 1986 , Health Care Financing Administration

 Publication No. 03232.


 Heal th Care Financing Administration
Division of National Cost Estimates , Office of the Actuary,

Expenditures , 1986-2000, Health Care, "National Health

                                        Financina Review

Vol. 8, No.   , Sumer 1987 , pps. 1-36.

Health Care Financing Administration
Study of Health Insurance Designed to, Supplement
                                       "Report to Congress:

                                                  Medicare and

Other Limited Benefit Health Insurance Sold to Medicare

Beneficiaries " HCFA Pulication No. 03256, September 1987.
Health Care Financing Administration
                                     , "The
Recoveries Study, draft report prepared     Medicaid
                                         by region   Estate

                                                   X in 1985

unpublished.
Health Insurance Association of America, "

                                           Conference on Long-

Term Care: Proceedings, " Washington , D. C., December 4 , 1984.
Health Insurance Association of America

                                        , "Long-Term Care:

The Challenge to Society, " publication of the Public

Relations Division , 1984.
Hereford , Russ and Bruce Spitz , "Transfer of Assets:
Practices , Issues and Options                         State
                              " unpublished , prepared for the
Medicaid Cost Containment Commission

December 1983.                      , State of Connecticut

Hing, Esther , "Use of
 Nursing Homes by the Elderly:

Preliminary Data From the 1985 National Nursing Home
NCHS Advancedata , No. 135 , May 14                    Survey, "
                                    , 1987.
                                   , "





Holahan ,John F. and Joel W. Cohen,    Medicaid: The Trade-off
Between Cost Containment and Access to Care , The Urban

Institute Press , Washington,       , 1986.


Hoover, James B. and Jerry Balter, "Long-Term Care Insurance:

An Emerging Growth Opportunity for the Nursing Home

Industry, " Robertson, Colman and Stephens , (Investment
Bankers), institutional research paper, July 29, 1986.


ICF, Incorporated , "Policy Options for Long-Term Care, " final

report submitted to the American Health Care Association,

May 15, 1987.


ICF Incorporated, 
 private Financina of Lona-Term Care:

Current Methods and Resources , final report to the Office of

the Assistant Secretary for Planning and Evaluation, U.

Department of Health and Human Services , January 1985.


Intergovernmental Health Policy proj ect , "State Legislation
and Regulations Related to Long-Term Care Insurance
 Focus
On... , No. 15, February 1987.
Issacs   , Joseph C. and Stephanie Tames,   Lona-Term Care: In
Search of a National policv , National Health Council, Inc.

New York, New York, December 1986.
Jacobs, Bruce and William Weissert, "Home Equity Financing of

Long-Term Care for the Elderly, " in 
 Conference Proceedinas.
Lonq-Term Care Financina and Deliverv Svstems: Explorina
Some Alternatives. Januarv 24, 1984, Washinaton, D.

published by the Health Care Financing Administration,

Pulication  No. 03174.

Jacobs, Bruce and William Weissert, "Using Home Equity to

Finance Long-Term Care " Journal of Health Politics, Policy
and Law , Vol. 12, No. 1, Spring 1987, pps. 77-95.

Jaz.w:iecki,
           Tom, " Long-Term Care Financing Options for the
Future, "American Health Care Association, unpublished paper
presented by Robert T. Deane at the Third National Leadership

Conference on Long-Term Care Issues, March 7-9, 1984.


Jennings, Marian C. and Susanna E. Krentz , "Private Payment

for Long-Term Care: The Untapped Mechanism     Topics in
Heal th Care Financina , Spring 1984.

Keeffe, Patrick, "Ten Questions to Ask Your Parents,
 Monev
Maqazine , March 1985.
Kennell, David L.   Can the Elderly Afford Long-Term Care

Insurance, American Health Care Association Journal
VOL. 11, No. 6, October 1985, pps. 6-8.

'"                    ...      ..




                Knickman, James    . gl. , "Increasing Private Financing of

                Long-Term Care:  Opportunities for Collaborative Action,
                prepared for SRI International , August 1985.
                Kosterlitz , JUlie , "Health Focus           National Journal , No. 35
                August 29, 1987 , p. 2187.

                Kunerth, Alan M. , "Group LTC Insurance as a Marketing Tool

                ContemDorarv Lona-Term Care , Vol. 10 , No. 12 , pps. 38ff.
                Ladd , Richard C. , "Perceived Problems and Suggested Solutions
                Related to Long-Term Care Insurance, " unpublished paper by

                the Administrator of Oregon' s Senior Services Division,
                January 12, 1987.


                Lane , Laurence F., "Private Long-Term Care Insurance
                Term Care Currents , Vol. 8 , No.
 , 1985.
                         Lona-
                Lane, Laurence F. , "Shaping Long-Term Care Insurance in the
                States          American Health Care Association Journal
                                                                         , Vol. 11,
                No.         , October 1985 , pps. 24-26.
            Lane, Laurence F. , sumary of the proceedings of the
            AAP/AHCA/NAHC/NGA conference on " Private Long-Term Care
            Insurance: The Emerging Market, " November 21-22
                Francisco, California.                                     , 1985, San

            Lane , Laurence F. , "The Potential of Private Long-Term Care
            Insurance, Pride Institute Journal of Lona-Term Home Health
            Care , Vol. 4, NO. 3, Sumer 1985, pps. 15-21.
            Leutz ,
                  Walter, "Long-Term Care               for the Elderly: Pulic
           Dreams and Private Realities
                Inauirv ,   VoL 23 , Sumer 1986,
           pps. 134-140.


           Libassi , F. Peter , Chairman , Governor' s Commission on Private
           and Public Responsibilities for Financing Long-Term Care for

           the Elderly, 
 How Will We Pav? , final report , June 1, 1987.

           Lifeplans, Inc. , "Private Long-Term Care Insurance: Issues
           Options and Potential, " prepared for American Association of

           Homes for the Aging, Waltham , MA.


           Lifson , Arthur , "Financing Long-Term Care: HIAA'
           Evaluation, Health Care Financial Manaaement , Vol.                 38
           No.          , March 1984.

           Lifson, Arthur, "Long-Term Care: An Insurer' s Perspective,

           in C..:nIenmce proceedinas: Lona-Term Care Financ:jna and
           Deliverv Systems: EXDlorina Some Alternat

                                                         , Health
           Financing Administration, United States Government      Care

                                                               Printing

           Office ,           Washington, D.    1984.




     .r"
Lona-Term Care Manaaement Newsletter , Volume 16 , Numer 7

McGraw-Hill, Washington , D. C., April 2, 1987.


Maag, Stephen J. , "Consumer Confidence Increases
Marketability,      American Health Care Association   Journal,
Vol. 11, No.      , October 1985 , pps. 28-29.


Manton, Kenneth G. and Korbin Liu, "The 1982 and 1984

National Long-Term Care Surveys: Their Structure and

Analytic Uses " unpublished, prepared for National Conference

on Long-Term Care Data Bases, May 21-22, 1987 , Washington,



Matula, Barbara, "The Cost of Caring for Long-Term Illness:

The Case for Insurance, America' s Health Care Challenae:
New Directions for Business. Government and Individuals

Northwestern National Life Insurance Company, 1986

pps. 32-34.


Meiners, Mark R., "Enhancing the Role of Private Insurance in

the Public Responsibility for Long-Term Care: Strategies for
State Action, " unpublished draft , January 29, 1988.


Meiners, Mark R., "Long-Term Care Insurance:        An Idea Whose

pps. 36-42.                   s Health Care Challenae: New
Time Has COlle,    America'
Directions for Business, Government and Individuals

Northwestern Na ional Life Insurance Company, 1986



Meiners, Mark R., "Shifting the Burden: The Potential Role

of the Private Sector in Long-Term Care Insurance for the

Elderly, American Health Care Association Journal
March 1982, pps. 20-22.


Meiners ,Mark R., "The Case for Long-Term Care Insurance,
Health Affairs , Vol. 2, No. 2, Sumer 1983, pps. 55-79.

Meiners, Mark R., "The State of the Art in Long-Term Care

Insurance, " National Center for Health Services Research,
Washington, D. C., 1984.


Meiners, Mark R. and James O. Gollub , "Long-Term Care

Insurance: The Edge of An Emerging Market     Carina , Vol. IV
  . 3. , March 1985, pps. 12-16.


Meiners ,   Mark R. and Arlene K. Tave, "Consumer Interest in
LUllg-T..nil Ci1.ce Insurance: A Survey of   the Elderly in six
States, "draft article, National Center for Health Services
Research, February 15, 1985.


Meiners, Mark R. and Arlene K. Tave , "Predicting the

Determinants of Demand for Long-Term Care Insurance, " draft

     "'-- ".---.- .._               , "                                                   , "





         article ,National Center for Health Services Research,
         December 7 , 1984.


        Meiners , Mark R. and Gordon R. Trapnell, "
                                                    Long-Term
        Insurance Premium Estimates for Prototype Policies
                                                    Care
        Care , Vol. 22, No. 10, October 1984, pps. 901-911.                                                     Medical
        Moran, Donald W. and David Kemnell, "Restructuring Long-Term

        Care Financing, Provider , Vol. 13 , NO.
        pps. 21-25.
                             6, June 1987,

       Muse , Donald N. , "Strategies to Promote Private Financing
       Options: Medicaid Reform " paper prepared for the Governor'
       Commission on Private and
                                        Responsibilities
       Financing Long-Term Care for the Elderly, State of
for
                                                                     Pulic
       Connecticut , May 22, 1987.
       Myder , Janet A., " Long-Term Care Insurance:
                                                                                                       It Still Has a
       Long Way to Go,                           Provider ,             February 1988.
      Myder; Janet   Private Long-Term Care Insurance:
                                                        The
      Maturing Market " Conference Sessions and Technical Symposia

      Sumary of Proceedings , American Health Care Association,
      based on third annual national conference on private long-

      term care insurance January 13-14, 1987

      Texas.                                 , in San Antonio,


      National Association of Insurance Commissioners 

      Term Care Insurance: An Industrv                 (NAIC), Lona-
      DeveloDment and Consumer Protect
 PersDecti ve on Market
                                                                                          , 1987.

     National Center for Health Statistics , 


     1987 , DHHS Pu. No. (PHS) 88-1232,     Health . United States.
     Washington, D.                     Pulic Health Service
                                        C., Government Printing Office
                                                  , March 1988.
     National Chamber Foundation, Private Sector Task Force on

     Catastrophic and Long-Term Health Care Alternatives

     Sector Policy ODtions for Addressina CatastroDhic and Private
                                                             Lona-

     Term Health Care Needs , Washington
                                         , D. , July 28 , 1986.

     National Health Law Program (Roger
                                          Schwartz),
     Legislation Adopts Many Changes in Medicaid      " New
                                                    and     COBRA
                                                         Other Health

     Programs    Clearinahouse Review , Volume 20
     July 1986.
                                  , Numer 3

     National Senior Citizens Law Center

     Assets Update: HHS Tries to Control theMedicaid Transfer of

                                               Hydra

     Clearinahouse Review , October 1982, pps. 431-433.


     Neuschler            , Edward, 
            Medicaid Eliaibilitv for the Elderlv 

     Need of Lona-Term Care " National Governors                                                 I Association
     Center for Policy Research, Washington, D.

                                                                                                     , September 1987.





r.
Newland, Jane, "Long-Term Care Financing: will it Bury Tax

Reform?                  Hosnitals ,   March 5, 1987 , pps. 42-48.
Office of Inspector General, Office of Audit, " Draft of a

Proposed Report on Recovery of Past Medicaid Payments From

Estates of Deceased Recipients " Audit Report Number

A-05-86-60249, December 23, 1986.


Oriol, William E., The Comnlex Cube of Lona-Term Care

American Health Planning Association, Washington, D.   , 1985.

Oviatt, Carol C. private Health Insurance Coveraae for Lona-

Term Care Services , Institute for Health Planning, Madison,

Wisconsin, December 1983.


Payne, . John B., Jr. , "Medicaid Asset and Divestment POlicy,
Michiaan Bar Journal ,                 January 1987.
Pepper, Claude, "Insuring the Dignity of the Individual

American Health Care Association Journal , Vol. 11, No.

October 1985, pps. 3-5.
Pollack, Ronald F., "Health Care and the Economics of Old

Age,  Provider , Vol. 13 , No. 6, June 1987, pps. 12-15.
Press , Stephen H., "Insurance: Alternative Funding Source
American Health Care Association Journal , Vol. 11, NO.

October 1985 , pps. 33-36.


Response Analysis Corporation, 
Lona-Term Care Coveraae: How
Fast is the Market Growina , "Volume I: Executive Sumary and

Implications, " Princeton, New Jersey, February 1987,
pps. i-xxvi.
Rice ,Thomas and Jon Gabel, "Protecting the Elderly Against
High Health Care Costs    Health Affairs , Vol. 5, NO.

Winter 1986 , pps. 6-21.


Roche , "The Cost and Availability of Nursing Home Care
Heal th Policy Renort , Vol. 1, No. 2, Spring 1987.


Rowland , Don, " Division of Assets: A Status Report,                 The
Journal of the Kansas Bar Association , Vol. 55, No.

September/October 1986 , pps. 4-5.


Ruggles, Patricia and Marilyn Moon, "The Impact
 of Recent

Legisli'tive Changes in Benefit Programs for the Elderly, The
Gerontoloaist , Vol. 25, No. 2, 1985 , p. 156.
Sabatino ,              Charles P. , "An Advocate' s Primer on Long-Term    Care
Insurance                 Clearinahouse Review , Special Issue , Summer,
1986.
 Scanlon , William J. and Judith Feder, "The Long-Term Care
 Marketplace: An Overview     Health Care Financial Manaaement

 January 1984.


 Scholen, Ken,
                        The Role of Home Eauitv in Financina

 Lona-Term Care: A preliminarv Exploration , produced for the

 Minnesota Housing Finance Agency by the National Center for

 Home Equity Conversion, Madison, Wisconsin , and the Health

 Policy Center of Brandeis University, Waltham, Massachusetts,

 February 28, 1986.


 Sekscenski ,
            Edward S. , "Discharges From Nursing Homes:
Preliminary Data From the 1985 National Nursing
NCHS Advancedata , No. 142, September 30, 1987.
 Home Survey,


Simon , Mitchell M., "Estate Planning and Resource
Maximization for the Elderly: Medicaid Considerations

Hamcshire Bar Journal , Volume 25, Numer 2, January 1984 New
pps. 101-108.


Somers , Anne R., "Insurance for Long-Term Care:
Definitions, Problems , and Guidelines for Action
 Some
                                                     New
Enaland Journal of Medicine , Vol. 317 , NO. 1, July 2, 1987

pps. 23-29.


Stepankowsky, Paula LaBeck, "Nursing Home Insurance:
                                                        Seniors
Pay Thousands for Policies They Will Never Be Able to Use,

The Dailv News , Longview , Washington, February 11, 1985.


Strahan, Genevieve , "Nursing Home Characteristics:

Preliminary Data From the 1985 National Nursing Home
NCHS Advancedata , No. 131, March 27, 1987.
         Survey, "

Tabak, Harley L. , "How to Make Sure the Policy    Pays,
American Health Care Association Journal , Vol.
     , NO.

October 1985 , pps. 20-21.

Talis, William G. , "Medicaid as an Estate Planning Tool,

Massachusetts Law Review , Spring 1981, pps. 89-94.


Tames, Stephanie, "Special Report: LTC Insurance,
 Lona-Term
Care Manaaement Newsletter , Vol. 14, NO. 5, March 7
                                                       , 1985.

Texas State Board of Insurance The Lona-Term Care Dilemma:

What Can Be Done About It , Austin, Texas
 January 12, 1987.


Topolnicki , Denise M., "When a Nursing Home   Becomes Your
Poorhouse, 'Monev Maqazine , Vol. 15, No.      March 1986

pps. 175-182.


United states Code, Congressional and Administrative News

97th Con ress--Second Session--1982, Legislative History

 (Pulic Laws 97-146 to 97-248) Volume 2, st. Paul, Minnesota

 West Pulishing Company.
 United States Congress, House Select Committee on Aging,

 America' s Elderlv at Risk , Washington, D. C., United States.
 Government Printing Office , 1985.

 United States Congress , House Select. Committee on Aging,

 Lona-Term Care and Personal Impoverishment: Seven in Ten

 ElderlY Livina Alone are at Risk , Committee
                                               Pulication
 No. 100-631, U. S. Governent Printing Office, Washington,
   C., 1987.


United States Congress, Office of Technology Assessment

Losina a Million Minds: Confrontina the Traaedv of
Alzheimer' s Disease and Other Dementias , OTA-BA-323
Washington, D.   : United States Governent Printing Office
April 1987.


United States Congress, Senate Special. Committee on Aging,
Aaina America: Trends and Proiections. 1985-86 Edition

February 5, 1986.


United States Congress , Senate Special Committee on Aging,

Aaina America: Trends and Proi      ons. 1987-88 Edition
United States Congress, Senate Special Committee on Aging,

How Older Americans Live: An Analysis of Census Data. An

Information Paper , Serial No. 99-D, October 1985.

Versnick, Nancy, '" An Idea Whose Time Has Come I ,
Heal th Care Association Journal Vol. 11, No.
       American
                                                  , October
1985, pps. 36-37.
Villers Foundation, On the Other Side of Easv Street:
and Facts About the Economics of Old Aae , Washington , D.Myths
1987.
Wagner, Lynn, "Nursing Homes Buffeted by Troubles

Health Care , March 18 , 1988, pps. 33-42.             Modern

Waldo , Daniel , Katharine Levit , and Helen Lazenby, "National
Health Expenditures , 1985
 Health Care Financina Review

Vol. 8 , No. 1, Fall 1986 , pps. 1-21.


Walker, David, Deputy Insurance Commissioner of the State of

Washington, printed and aUdio-tape training materials for the

 enior Heal th Insurance Benefits Advisors (SHIBA)   Program.
Wasilewski, Charles , "Mature Customers , Immature Products

Best' s Review , Vol. 87 , No. 12, April 1987.
                        , "





 Weissert, William G., "Estimating the Long-Term Care



 pps. 83-91. .
 Population:  Prevalence Rates and Selected Characteristics
 Health Care Financina Review , Vol. 6 , No.

                                              , Sumer 1985

Wiener, Joshua M. , "Financing and Organizational Options for

Long-Term Care Reform: Background and Issues
                                               " unpublished

paper presented at the New York Academy of Medicine  Annual

Health Conference, New York, New York , May 3
                                               , 1985.

Wiener , Joshua M. , "Modeling Long-Term Care for the Elderly:
The Case of Private Insurance, " unpublished paper presented

at the American Sociological Association Annual Meeting, New

York , New York, September 2, 1986.
Wiener ,Joshua M.   We Can Run , But We Can't Hide: Financing
Options for Long-Term Care, " Congressional testimony

presented October 1, 1987.

Wiener, Joshua M. , Deborah A. Ehrenworth, and Denise A.

Spence , "Private Long-Term Care Insurance: Cost, Coverage
and Restrictions    The Gerontoloaist , Vol. 27 , No.
 , 1987

pps. 487-493.

Wiener
Money? Financing Options ,for"Money, Money, Who' s Got the
         , Joshua M.,


                               Long-Term Care " unpublished
paper presented at the State University of New York, Albany,

conference on "Health in Aging: Sociological
Policy Directions " April 18-19, 1986.
       Issues and


Wiener   , Joshua M.,          al.
                         , "Who Will Pay for Us When We Are
Old and Gray? Financing and Organizational Options for Long-
Term Care Reform, " unpublished paper presented at the

Gerontological Society of America' s Annual Meeting, Chicago,

Illinois, November 21, 1986.
                               APPENDIX


 Citations for the inset "WHY PEOPLE WITH SIZEABLE ESTATES

 END UP ON MEDICAID.
 a"Medicaid is a program intended only for the indigent, and

 eligibility is contingent on nearly complete depletion of

 financial resources.   (U. S. Congress, Office of Technology
Assessment (OTA), p. 26.
"With some exceptions, to be eligible for Medicaid, an

individual must receive or be eligible for federally

assisted cash welfare payments.   (Council of Economic

Advisers, p. 155)
" . . . the bitter pill of Medicaid coverage for nursing home
care is that the recipient must be pauperized        , that is,
stripped of almost all possessions and other assets, in

order to meet eligibility requirements.       (Oriol, p. 19)

      council of Economic Advisers, pps. 159-160.

cAmerican Council of Life Insurance
, mortality tables,

p. 113.
d"The prevalence of severe dementia (Alzheimer I s Disease and
related disorders) rises from approximately 1% (ages 65 to

74) to 7% (ages 75 to 84), to 25% (over age 85). " (OTA, p. 7)


 percentages of older Americans living in homes for the

aged, by age:


        65-69
        70-74      XX
        75-79      XXXXX
        80-84      XXXXXXXXXX 10%
        85+        XXXXXXXXXXXXXXXXXXXXXX   22%

Source: Special      Committee on Aging, U. S. Senate.     Cited in
the     Wall Street Journal , December 31, 1986.


"The best estimates place the prevalence of dementia among

nursing home residents at more than 50%. By sheer numers
then, the problems of the long-term care system are the

problems of persons with dementia. " (OTA , p. 447)


"Five percent of Americans 65 and over are in nursing homes

at anyone time , but only 3. 5% are long- stay patients....

Individuals with dementia are likely to be in the long-stay

group, needing supervisory and personal care more than

medical attention. One analysis estimates that those with

                                  A- 1

dementia constitute 60 to 70% of the long-stay group, making

dementia one of the major determinants of those staying

longer than 90 days in nursing homes.   (OTA, p. 27)

 The majority of nursing home admissions are short-stayers

(with an average length of stay of 1. 8 months), but on any

given day, long-stayers (with an average length of stay of

  5 years) constitute over 90% of all nursing home

residents. These long-stayers, who are more likely to be

Medicaid recipients, thus consume the vast majority of

resident bed days.   (HCFA, Grant and Contracts Report

p. 128)
fNursing home expenditures average $22, 500 per person

annUally (OTA, p. 450) and range from $750 per month to over
$3, 000 (OTA , p. 27).
g"Most dementing conditions last years  , often decades. One
recent study found the average duration of illness , from

first onset of symptoms to death, was 8. 1 years for
Alzheimer' s disease....   (OTA, p. 14)
h" . . . those most in need of long-term care are most likely to
have the bulk of their savings tied up in their homes.

Widows.. . have 83% of assets thus committed, as compared to a
median of 70%.     (Oriol, p. 135)


"Based on surveys of elderly living in the community in

Massachusetts, 65% of elderly persons aged 66 and older

living alone will impoverish themselves after only 13 weeks

in a nursing home. For married couples 66 years and older,
one out of three (37%) will become impoverished within 13

weeks if one spouse requires nursing home care.     (U. S.
Congress , House Select Committee on Aging, 1985, p. VII)
i"Nursing home care is a small part of Medicare
                                                , and the

services covered are restricted to short stays after

hospitalization.. . Nursing home payments under Medicare
were only $600 million of $64. 6 billion total Medicare

outlays in 1984 and accounted for 1. 9% of the total spent

nationwide on nursing home care.    (OTA, p. 18) 

j" At present ,most private insurance simply fills the gaps
in Medicare nursing home coverage.... Since insurers rely

on the narrow Medicare definition of skilled care, it is not

surprising that our national health accounts reveal such a

sIDcll role for private insurance financing of nursing home
care , in spite of the significant numer of the elderly who
own an insurance policy that covers nursing home care.

(Meiners, "The State of the Art in Long-Term Care Insurance

p. 2)


                               A- 2

."   -,.   ':"   =:'-   ;,: ""':   ..            .._   .-=                               _..    ""'




                            Private insurance of all kinds paid only. 85 percent of

                            total nursing home costs in 1985. (HCFA , "Health Care

                            Financing Notes " p. 8)

                           k"The dearth of insurance and Medicare coverage of long-term

                           care (particularly for stays of more than 90 days) is not

                           widely recognized by mos' ;: older Americans. A survey of
                           elderly people performed by Gallup for the American

                           Association of Retired Persons showed that 79% believed that

                           Medicare would pay for all or part of their nursing home

                           care.   Another survey found that only 25% to 47% of those
                           asked knew that Medicare does not cover a 6-month nursing

                           home stay. Yet Medicare covers less than 2% of expenditures

                           for nursing homes , and private insurance pays for less than

                           1%. " (OTA, p. 28)

                               private (i.e.
                                          , nongovernent) ' sources pay nearly the same
                          proportion of total national health expenditures (58.

                          percent) and total nursing home costs (53. 1 percent).
                          Overall , health insurance pays 53. 3 percent of the private
                          costs. For nursing home costs alone , however, insurance pays

                          only 1. 6 percent of private costs. Thus,    although the public
                          comes out- of- pocket for only 46. 7 percent of private health
                          care costs in general , the elderly direct pay 98. 4 percent
                          of private nursing home costs ($18. 7 billion). (HCFA

                          "Health Care Financing Notes " p. 8 , based on 1985 data.


                          Although private long-term care financing vehicles, such as

                         long-term care insurance, life care communities , and social

                         HMOs have become increasingly available , the potential

                         market has barely been tapped. There are several factors
                         that inhibit full market development for long-term care

                         financing products.... The key barriers are:


                                    The lack of consumer awareness about the risk of needing

                                   and the cost for long-term care services and the absence

                                   of private coverages for these services has suppressed

                                   demand for private long-term care financing products....


                                    The lack of data regarding the utilization and costs of

                                   long-term care services, particularly in an insured

                                   environment, makes the actuarially sound pricing of

                                   products very difficult.


                                   "The additional underwiting and policy design concerns
                                   of adverse selection and moral hazard on a product where

                                    medical necessity" may not be an applicable coverage

                                   criterion complicates insurer efforts to limit exposure

                                   to unpredictable liabilities.





                                                             A- 3





                                        -:""r-                                    ..;u                ;.i-.
                                                                             . .




   "The regatory no. incentives for,
                     environment at both and
                                          state
                                             in and
                                                manyfederal
                                                     cases
   levelS presents 

   inhibits, long-term care product development.


   "The efficient marketing of long-term care products will

   require the time-consuming development of new marketing

   methodologieS and systems. The marketing    of long-term

                                          because the target

   care products cannot be readilY integrated into existing

   marketing systems of large compani

    market and the product are so different
                                   (NAIC, p. from
                                             15)
 most other

    existing insurance markets and products, and interest by

    employer groupS is limited.


"GenerallY, the Medicaid program is perceived by the middl

class as free, acceptable, and an inalienable right....

until such time as the array of Federal and state programs

that currentlY finance long-term care arewith   significant
                                            perceived    as

unacceptable alternatives, the private market for long-term

 care insurance will be limited to thoS                    " p. "J
 assets to protect and with sufficient income to pay

                              An Insurer"
 relativelY high rates for protecting     permpecti
                                        these assets.ve,

  (Lif,on, "LOng-Term care' 

                                                        authors              \I.

                     s shortcomings cited by vario

  mSome of Medicaid'         spend down assetsonsandwhich
                                                     income to                I.i-


 include: (1.)the
               the need to
                  deeming of             (3) pressure to divorce
                               income provisi
 qualifY, (2).
 frequently impoverish property,   (') alleged
                         a well spouse,         discrimination
                                           (5) accusations  of
 in

 in order to partiti                        Nevertheless,
 the availability of nursing home beds,

  inferi    care, and (6) welfare stigma.
                    class is depending more and more on

  America I s
  Medicaid.      According to HCFA,
              middl
                                                  " program

                         become the major "insurance
        Medicaid has .
        for nursing home care, not onlY for elderlY persons

        of low income, but for middle income persons who


         p. 122)
        cannot afford
        very long.

                           the high
                   . (HCFA,





    unfortunatelY, Medicaid 

                                    cost
                                Grants   of contracts
                                       and   nursing homes for

                                                      Renort


                                                    nursing hom
                               I s contribution to I s out-of-
                                                                 costs
                                                              pocket

    has been declining rapidlY and the elderlY          6 percent
    costs havetWO
                increased proportionatelY,   Between 48.

                   major funding sourcescontributed
                                          for nursing
                                                      1979 and

                                                       home care

    1.985, the                                                   payment',
                            4 billion)
    switched places. Medicaid,         in 1979, dropped to 41.

                                    which
    of total costs ($17.
                              7 percent in
                        2 billion' in 19'5. Direct patient         of all
    percent   (of $,5.      costs, which were onlY 42.1 percent to
     i. e., out -of- pocket
                         4 percent in 1985. The contributi

     1979, rose to 51.

                                   insurance (. 8(2.

                                                  percent to
                                          2 percent   to 3.
                                                                   1.
                  t) , private health
     other funding sources, including Medicare
     1. 7 perce
     percent), other Government funds (5.

                                        A-
